<html>
<title> - HOMELAND SECURITY POLICYMAKING: HSC AT A CROSSROADS AND PRESIDENTIAL STUDY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                    HOMELAND SECURITY POLICYMAKING:
               HSC AT A CROSSROADS AND PRESIDENTIAL STUDY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2009

                               __________

                           Serial No. 111-16

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
51-257 PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Kenneth L. Wainstein, Former Homeland Security and 
  Counterterrorism Advisor to the President:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Frances Fragos Townsend, Former Homeland Security and 
  Counterterrorism Advisor to the President:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Philip J. Palin, Senior Fellow, National Institute for 
  Strategic Preparedness:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Thomas C. Frazier, Executive Director, Major Cities Chiefs 
  Association:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. Bruce Hoffman, Professor, School of Foreign Service, 
  Georgetown University:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    39

 
 HOMELAND SECURITY POLICYMAKING: HSC AT A CROSSROADS AND PRESIDENTIAL 
                                 STUDY

                              ----------                              


                        Thursday, April 2, 2009

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, Jackson Lee, 
Cuellar, Carney, Clarke, Richardson, Cleaver, Green, Himes, 
Massa, King, Dent, Olson, and Austria.
    Chairman Thompson [presiding]. The Committee on Homeland 
Security will come to order. The committee is meeting today to 
consider what the future of homeland security policymaking at 
the White House should look like and whether or not the 
existing National Security Council and Homeland Security 
Council structures should be reconsidered.
    The Homeland Security Council was stood up in 2001--in the 
wake of September 11 attacks--to enhance our Nation's ability 
to deter, detect, prevent, and respond to terrorism. Later that 
year, when Congress authorized the creation of the Department 
of Homeland Security, the decision was made to also codify--in 
law--the Homeland Security Council. The language of Title IX 
sets forth the composition and mission of the council.
    The Homeland Security Council is responsible for providing 
advice to the President on homeland security policies based on 
assessments of our Nation's risks. It is also charged with 
overseeing, reviewing, and making recommendations to the 
President on Federal homeland security policies.
    In its short history, the Homeland Security Council, by 
most accounts, has been an important driver of preparedness and 
response activities throughout the Nation. With the change in 
administration, the timing is ripe for asking key questions 
about whether how--ask key questions about whether how we have 
been doing homeland security policymaking over the past 8 years 
is still the right way to go.
    The President is to be commended for issuing Presidential 
Directive--1, which establishes a study team to examine how to 
improve security policymaking at the White House. As the study 
team is hard at work developing its recommendations, I thought 
it would benefit the committee for us to hear from people who 
know all too well about the challenges of the current homeland 
security policymaking apparatus. I thank our distinguished 
panel of witnesses for being here to participate in one of our 
favorite Washington pastimes--the game of speculation.
    For my part, I have been giving some thought to the 
potential outcomes of the study--which should emerge in late 
April--and see it going one of three ways. No. 1, they could 
propose dissolving the Homeland Security Council into the 
National Security Council; No. 2, they could propose retaining 
a two-council system that is more integrated; or No. 3, they 
could propose eliminating both councils in favor of creating a 
new council to handle the full continuum of security issues--
everything from nonproliferation to emergency response.
    There are strong cases to be made for better integration of 
homeland security and national security policies. Whether a 
structural merger of the two White House councils is the best 
way to achieve better integration remains to be seen. However, 
this committee, given our oversight responsibility, has a 
vested interest in making certain that whatever comes out of 
the White House review actually enhances homeland security.
    Findings should be able to pass a basic three-part test. 
First, will the findings enhance the Nation's security? Second, 
will the Department of Homeland Security's effectiveness be 
bolstered? Third, will the findings enhance the voice of State, 
local, and Tribal authorities, our Nation's first preventers in 
the White House? I look forward to hearing from our witnesses 
today on this important issue.
    I now recognize the Ranking Member of the full committee, 
the gentleman from New York, Mr. King, for an opening 
statement.
    Mr. King. Thank you, Mr. Chairman. Thank you for scheduling 
this hearing because it really is on a topic which I think many 
of us probably have opinions but not fully formed opinions, and 
I think it is important that we determine what the best 
direction for the President to go in and the country to go in.
    I just want to welcome our witnesses this morning, 
especially thank Mr. Wainstein and Ms. Townsend for their 
service to our country. I want to assure Ms. Townsend that I am 
looking after the welfare of her mother, who is a constituent 
of mine.
    You said she was thinking of moving. Tell her we would 
stick around for the next election. It could be close. I don't 
want to lose any unnecessary votes.
    Chairman Thompson. Away in New York--for the next election, 
right?
    [Laughter.]
    Mr. King. That is right.
    Mr. Chairman, as I said, I do not have a fully formed 
opinion on this. My inclination right now--my belief is, 
though, that we should not be separating out the Homeland 
Security Council from the National Security Council. Having 
said that, I don't think there is any guaranteed system which 
ensures success or one which would bring about failure.
    I believe, even if there were a merger and the President 
had a strong working relationship with a homeland security 
adviser and that adviser could go to the President in times of 
emergency if they had direct access, it would work. A lot does 
depend on the personalities involved; a lot does depend on the 
extent of the relationship. It would depend on other people at 
the council, including the head of the NSC.
    My concern, though, is putting in place a system which 
would work even if all of the actors, all the characters, are 
not doing their job perfectly, have a system in place where if 
things do go wrong, the system itself would better provide for 
success. I just have a number of concerns about what would 
happen if there were a merger and there were not this excellent 
relationship between the President and the homeland security 
adviser.
    For instance, my concern is--and this is true of the 
Congress and of the country--that each day we go beyond 
September 11, the issue of homeland security recesses into 
people's minds. They forget they significance of it--or not 
forget, but they, you know, they put it away, and it doesn't 
have that cutting-edge importance that I believe it should have 
at all times. That is just human nature.
    We are going to be having on-going conflicts, whether it is 
Iraq, Afghanistan, or whatever. That is just the reality of the 
world we live in, where we are going to have on-going foreign 
crises and the human nature for more attention to be focused on 
them.
    Also, within the administration itself, I think--any 
administration--people tend to go where the power is or the 
influence is or what the hot-button topic of the day is, and I 
just see that could more and more be foreign policy as opposed 
to homeland security. I know they are overlapping; I know there 
is interrelationship between the two, obviously. But on the 
other hand, there are also real distinctions between the two.
    So again, I would have the concern those distinctions could 
run the risk of not being fully appreciated and realized as we 
go forward. Also I say this--and I know that Ms. Harman 
probably disagrees with me on this--but I think the 
administration does make a mistake by not using the term 
terrorism. I think so long as that is not used it also can 
create a--among people, say, looking for positions, looking for 
jobs or looking for positions of influence in an 
administration, that homeland security would not have that 
sense of importance that it obviously had after September 11 
and the years after that.
    So because of that, my inclination right now is to think 
that the two should be kept separate. Having said that, I have 
no doubt that President Obama and John Brennan and whatever 
will have an excellent relationship, will get the job done, and 
will do what has to be done. But I am thinking more of the 
institutional protections we need, and I don't think that would 
be fully addressed. My concern is it would not be fully 
addressed if this separation occurred.
    With that, I look forward to the hearing and yield back the 
balance of my time.
    Chairman Thompson. All the Members of the committee are 
reminded that, under the committee rules, opening statements 
may be submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
         Prepared Statement of the Honorable Sheila Jackson Lee
                             April 2, 2009
    Thank you Mr. Chairman. I thank Chairman Thompson for convening 
this important hearing to examine President Obama's Presidential Study 
Directive and to examine the possibility of a Homeland Security 
Council/National Security Council Merger. I welcome our distinguished 
witnesses and look forward to their testimony.
    In the wake of the tragic events of September 11, 2001 and during a 
global war on terror, the Department of Homeland Security has an 
increasingly significant role to play. That means that the Homeland 
Security Council takes on a larger responsibility.
    September 11, 2001, is day that is indelibly etched in the psyche 
of every American and most of the world. Much like the unprovoked 
attack on Pearl Harbor on December 7, 1941, September 11, is a day that 
will live in infamy. And as much as Pearl Harbor changed the course of 
world history by precipitating the global struggle between totalitarian 
fascism and representative democracy, the transformative impact of 
September 11 in the course of American and human history is indelible. 
September 11 was not only the beginning of the Global War on Terror, 
but moreover, it was the day of innocence lost for a new generation of 
Americans.
    Just like my fellow Americans, I remember September 11 as vividly 
as if it was yesterday. In my mind's eye, I can still remember being 
mesmerized by the television as the two airliners crashed into the Twin 
Towers of the World Trade Center, and I remember the sense of terror we 
experienced when we realized that this was no accident, that we had 
been attacked, and that the world as we know it had changed forever. 
The moment in which the Twin Towers collapsed and the nearly 3,000 
innocent Americans died haunts me until this day.
    At this moment, I decided that the protection of our homeland would 
be at the forefront of my legislative agenda. I knew that all of our 
collective efforts as Americans would all be in vain if we did not 
achieve our most important priority: the security of our Nation. 
Accordingly, I became then and continue to this day to be an active and 
engaged Member of the Committee on Homeland Security who considers our 
national security paramount.
    Our Nation's collective response to the tragedy of September 11 
exemplified what has been true of the American people since the 
inception of our Republic--in times of crisis, we come together and 
always persevere. Despite the depths of our anguish on the preceding 
day, on September 12, the American people demonstrated their compassion 
and solidarity for one another as we began the process of response, 
recovery, and rebuilding. We transcended our differences and came 
together to honor the sacrifices and losses sustained by the countless 
victims of September 11.
    After the events of September 11, 2001, the American people became 
painfully aware of the difference between feeling secure and actually 
being secure. And after Hurricanes Katrina and Rita, we learned that 
the Department's readiness for and response to natural disasters is 
woefully inadequate. The people of Galveston, Texas are still coping 
with the effects of Hurricane Ike. We cannot let our citizens languish 
and question whether the Department of Homeland Security is up to the 
task of disaster preparedness.
    As we examine the DHS's fiscal year 2010 budget, we must take 
decisive steps to ensure that adequate funds are available and 
allocated so that the trust that the American people have placed in our 
hands is not compromised and that we take strategic steps to ensure 
their future safety from both terrorist attacks and natural disasters. 
The function of the Homeland Security Council is paramount in the 
national security apparatus. Protecting our Nation from terrorists is a 
national priority with international implications. Every President must 
be able to depend on his or her advisors to give the best possible 
advice. Communication and interagency coordination from the White House 
are essential to the security function.
    I am pleased that President Obama immediately demonstrated the 
importance of homeland security in his administration by issuing this 
Presidential Study Directive.
    As the Chair of the Subcommittee on Transportation Security and 
Infrastructure Protection, I have a number of concerns with the 
potential proposals that might be implemented that are within the 
subcommittee's jurisdiction: Surface Transportation Security which 
includes Mass Transit and Rail Security, Critical Transportation 
Infrastructure, and Transportation Security Administration (TSA), whose 
operations I have recently witnessed on the ground at LaGuardia Airport 
in New York.
    I have serious concerns about the prospects of combining the 
Homeland Security Council and the National Security Council. I am 
skeptical of the effect that this would be to our overall efforts at 
having a coordinated national security policy. But like any prudent 
legislator I would withhold judgment until I have seen concrete plans 
which outline pragmatic and logical steps that demonstrate the efficacy 
of a combination.
    I eagerly look forward to your testimony and discussion today of 
these issues. I thank you Mr. Chairman, and I yield back the balance of 
my time.

    Chairman Thompson. Again, I welcome our witnesses to 
today's hearing.
    Mr. Wainstein was appointed--our first witness--was 
appointed by President George W. Bush as assistant for homeland 
security and counterterrorism. He has previously served in 
leadership positions at the FBI and a first assistant attorney 
general for national security at the U.S. Department of 
Justice.
    Ms. Townsend served as assistant to President George Bush 
for homeland security and counterterrorism from 2004 to 2008. 
As of some time this week, she is now with Baker Botts L.L.P. 
as a partner. Congratulations, nothing like a real job, right?
    [Laughter.]
    Chairman Thompson. Congratulations, as I said. Prior to her 
service at the White House, she served in the U.S. Attorneys' 
Office in Manhattan and as the assistant commandant for 
intelligence of the U.S. Coast Guard.
    Mr. Palin, welcome, is a senior fellow with the National 
Institute for Strategic Preparedness and has authored major 
papers in the area of emergency preparedness.
    Mr. Frazier is executive director of the Major Cities 
Chiefs Association, which represents the police chiefs of the 
56 largest police agencies in the United States and Canada. 
Welcome also, Mr. Frazier.
    Mr. Hoffman is currently a professor at the School of 
Foreign Service at Georgetown University. He is a thought 
leader and a recognized scholar in counterterrorism and 
national security affairs.
    Without objection, the witnesses' full statement will be 
inserted in the record.
    I now recognize each witness to summarize his or her 
statement for 5 minutes, beginning with Mr. Wainstein.

STATEMENT OF KENNETH L. WAINSTEIN, FORMER HOMELAND SECURITY AND 
           COUNTERTERRORISM ADVISOR TO THE PRESIDENT

    Mr. Wainstein. Chairman Thompson, Ranking Member King, 
Members of the committee, thank you very much for the 
opportunity to appear before you today. I want to thank the 
committee for holding this hearing and for its invaluable work 
over the years to build the homeland security infrastructure 
that protects our Nation and our people.
    I applaud President Obama's decision to undertake a review 
of the structure of the Homeland Security Council at this time. 
I also completely agree with his statement that ``homeland 
security is indistinguishable from national security.'' If 
there is one lesson that we learned from the attacks of 
September 11, it was that the traditional distinctions between 
international security and domestic security have lost much of 
their meaning.
    While it is true that homeland security is part and parcel 
of national security, it does not necessarily follow that there 
has to be a single, unified coordinating mechanism for both. 
Conversely, the fact that homeland security is a priority 
doesn't necessarily mean that the White House has to devote an 
interagency council to that mission.
    Whenever we undertake to organize or to reorganize 
Government operations, there is a natural tension between the 
interest in having all relevant operations in a unitary 
structure and the countervailing interest in separating those 
operations to ensure that each has its own identity and the 
resources, support, and high-level attention that often come 
with that separate identity.
    I have seen this issue play out in different contexts at 
other points in my career. When I served at the FBI, for 
example, the 9/11 Commission and others engaged in a lengthy 
debate about whether the bureau's intelligence function should 
remain consolidated with its law enforcement function or be 
separated out and assigned to a new agency. Similarly, several 
years back, there was a debate whether Department of Justice 
intelligence attorneys and national security prosecutors should 
remain in separate divisions or be consolidated into a single 
new division--an issue that Congress resolved by creating the 
National Security Division that I had the honor to lead.
    Each of these debates highlighted the tradeoffs at play 
when deciding whether to separate or consolidate Government 
functions. The organizational issue before the committee today 
highlights the same tradeoffs.
    In deciding whether to keep or to change the current 
structure, it is useful to review the accomplishments that the 
current structure has achieved. These include first and 
foremost the fact that the very existence of the HSC sent a 
clear message that homeland security was and remains a high 
priority. Second, the Homeland Security Council coordinated and 
oversaw the growth of myriad homeland security functions that 
were underdeveloped, nascent, or simply nonexistent prior to 9/
11.
    Third, the stand-up of the HSC allowed the White House to 
assemble a staff with expertise in homeland security fields, 
like port security, pandemic planning, and disaster response, 
some of which understandably did not figure very prominently in 
White House staffing prior to that time. Also, the HSC played 
an important role in fostering the growth and maturation of 
newly established Department of Homeland Security by helping 
DHS work through difficult interdisciplinary issues with other 
agencies and departments and keeping its issues and concerns on 
the President's agenda. Last, the existence of the HSC relieved 
the national security adviser of the responsibility of 
overseeing the homeland security build-up.
    I cite these benefits not to suggest that they will accrue 
only if we retain the current structure, but rather to ensure 
that these benefits are considered and taken into account when 
deciding how to reconfigure that structure.
    My experience as homeland security adviser left me firmly 
convinced that the White House must exercise a strong 
coordinating role among the varied players that share in that 
mission. I therefore believe that any new policy coordinating 
structure should meet the following prerequisites.
    First, the person serving the function of the homeland 
security adviser, no matter what his or her title, should be 
vested with the requisite authority and stature to coordinate 
and broker agreements among Cabinet officers and departments. 
Second, the homeland security adviser should have sufficient 
access to the President. Third, the interagency process devoted 
to homeland security issues, no matter whether conducted under 
the HSC or under a combined entity, should have the same status 
and authority as that devoted to national security issues.
    Also, those who work within the new structure will need to 
work cooperatively and collegially in those areas of shared and 
overlapping responsibilities that necessarily arise between the 
homeland and national security portfolios. Finally, the White 
House should make sure to devote the resources necessary to 
build and maintain a homeland security staff with the requisite 
expertise and size to handle the vast portfolio of the homeland 
security mission. Any organizational model that follows these 
operating principles has the potential both to maintain the 
priority of homeland security and to build upon and improve the 
performance of the HSC under the current structure.
    I thank the committee for soliciting my views on this 
important subject, and I applaud you for holding this hearing. 
Your concern about this subject is a strong reminder that 
homeland security is and must remain a front-burner issue, and 
it helps to ensure that the homeland security coordinating 
structure of the future will be strong, effective, and 
recognized by all as a critically important piece of our 
national security apparatus.
    Thank you again, Mr. Chairman and Ranking Member King, and 
I look forward to answering your questions.
    [The statement of Mr. Wainstein follows:]
               Prepared Statement of Kenneth L. Wainstein
                             April 2, 2009
                              introduction
    Chairman Thompson, Ranking Member King, Members of the committee, 
thank you for the opportunity to appear before you today. I am Ken 
Wainstein, and I served as the Assistant to the President for Homeland 
Security and Counterterrorism (Homeland Security Advisor) for the last 
10 months of the George W. Bush administration. Prior to that, I spent 
my career in various positions in the Department of Justice, where I 
worked on law enforcement and national security matters.
    I thank the committee for holding this important hearing and for 
its invaluable work over the years to build the homeland security 
infrastructure that protects our Nation and our people.
    I applaud the President's decision to undertake a review of the 
structure of the Homeland Security Council at this time. It is always 
healthy to step back from time to time and assess whether the 
organizations we establish and the policy-making mechanisms we 
implement are meeting both their original purposes and the changing 
needs that arise from the passage of time and new circumstances. With 
the benefit of approximately 7 years' experience with the post-9/11 
organizational changes, this is a particularly appropriate time for 
conducting such an exercise in the homeland security context. I also 
applaud those broader efforts--like that being undertaken by the 
Project on National Security Reform--that are examining the overarching 
structure and approach of our national security system in the 21st 
century.
       the choice between functional separation and consolidation
    I agree with the President's statement that ``homeland security is 
indistinguishable from national security . . . [that] they should be 
thought of together rather than separately [and that] we must create an 
integrated, effective, and efficient approach to enhance the national 
security of the United States.'' If there was one lesson from the 
attacks of September 11, 2001, it was that the traditional distinctions 
between international security and domestic security have lost much of 
their meaning, and that operations directed against external threats 
must be synchronized with the effort to defend the homeland.
    While it is true that homeland security is part and parcel of 
national security, it does not necessarily follow that there must be a 
single, unified coordinating mechanism for both. We can all cite 
examples where related or overlapping Government functions have been 
consciously and effectively divided among agency components or 
different agencies altogether. Conversely, the recognition that 
homeland security is a priority does not necessarily mean that the 
White House must devote an inter-agency council to that mission, and we 
can cite numerous high-priority policy matters that are effectively 
handled within policy councils that have broader portfolios.
    There is a natural tension in government organization between the 
interest in having all relevant operations within a unitary structure 
and the countervailing interest in separating those operations to 
ensure that each has its own identity and the resources, support, and 
higher-level attention that often come with that separate identity. I 
have seen this same issue play out in different contexts at other 
points in my career. When I served at the FBI, for example, the 9/11 
Commission and others were debating whether to recommend keeping the 
Bureau's intelligence function consolidated with its law enforcement 
function or separating it from the Bureau and assigning it to a new 
agency. Similarly, I participated in the debate whether DOJ's 
intelligence attorneys and national security prosecutors should remain 
in separate divisions or be consolidated into a single new division--an 
issue that Congress resolved by creating the National Security Division 
which I ultimately had the honor to lead. Each of these debates 
highlighted the trade-offs at play when deciding whether to separate or 
consolidate governmental functions in a unified structure. The 
organizational issue before the committee today highlights the same 
trade-offs.
                purposes served by the current structure
    In deciding whether to keep or change the current structure, it is 
useful to review those areas in which the current structure has been 
effective. While a more in-depth treatment of these areas can be found 
in the Homeland Security Policy Institute Task Force Report that was 
issued yesterday, I see the following as the most consequential 
purposes served by the HSC since its inception:
  <bullet> Prioritization of the homeland security mission.--The stand-
        up of the HSC reflected the priority placed on the homeland 
        security mission and sent a clear message that the President 
        was solidly behind the homeland security effort. 
        Notwithstanding the progress made over the past 7 years, that 
        symbolism and that message remain important, especially now 
        that economic concerns are capturing much of the political and 
        public attention.
  <bullet> Development of the homeland security infrastructure.--The 
        HSC coordinated and oversaw the growth of myriad homeland 
        security functions that were underdeveloped, nascent, or even 
        non-existent prior to 9/11. From critical infrastructure 
        protection strategies to disaster response preparation to 
        Presidential transition planning and execution, the HSC has 
        played a central role in coordinating the development and 
        implementation of new or newly-enhanced homeland security 
        operations.
  <bullet> Development of homeland security expertise within the White 
        House.--The stand-up of the HSC allowed the White House to 
        assemble a staff with expertise in those homeland security 
        fields (port security, pandemic planning, disaster response, 
        etc.), some of which understandably did not figure prominently 
        in White House staffing before that time.
  <bullet> Facilitating the development and maturation of DHS.--It was 
        my experience that DHS benefited from having an inter-agency 
        council and staff that were dedicated to its core mission. The 
        existence of the HSC in the White House reinforced the priority 
        placed on the Department's success, helped DHS work through 
        difficult interdisciplinary issues with other agencies and 
        departments, and kept its issues and concerns on the 
        President's agenda. While that support was necessary in the 
        Department's earlier years, it is conceivably less important 
        now that DHS is more established.
  <bullet> Division of labor with the NSC.--The existence of the HSC 
        also has served a very practical purpose--which is to relieve 
        the National Security Advisor of the responsibility of 
        overseeing the homeland security build-up and to prevent the 
        NSC from being distracted from its more traditional agenda 
        matters. This benefit has not receded in importance over the 
        years; if anything, it is becoming increasingly important with 
        the continued growth of the homeland security infrastructure.
    I cite these benefits not to suggest that they will continue to 
accrue only if the current HSC structure remains in place; but rather, 
to ensure that they are considered in the process of deciding whether 
and how to reconfigure that structure.
                prerequisites for an effective structure
    My experience as Homeland Security Advisor impressed me with the 
vast breadth and magnitude of the homeland security mission, and left 
me firmly convinced that the White House must exercise a strong 
coordinating role among the varied players that share that mission. I 
therefore believe that any new homeland security policy coordinating 
structure should meet the following prerequisites:
  <bullet> The person serving the function of the Homeland Security 
        Advisor, no matter that person's title, should be vested with 
        the requisite authority and stature to coordinate and broker 
        agreement among Cabinet officers and departments.
  <bullet> The Homeland Security Advisor should have sufficient access 
        to the President to brief the President on threat situations on 
        short notice and also generally to keep the President apprised 
        of and engaged in homeland security matters.
  <bullet> The inter-agency process devoted to homeland security 
        issues, no matter whether conducted under the HSC or under a 
        combined entity, should have the same status as that devoted to 
        national security issues, and should be fully empowered to 
        secure cooperation and collaboration among agencies and mediate 
        the differences that inevitably arise.
  <bullet> Those within the new structure--and in particular the 
        Homeland Security Advisor and his or her NSC counterpart(s)--
        will need to work cooperatively and collegially in those areas 
        of shared or overlapping responsibilities between the homeland 
        and national security portfolios.
  <bullet> And, the White House should devote the resources necessary 
        to build and maintain a homeland security staff with the 
        requisite expertise and size to handle the vast homeland 
        security portfolio.
    Any organizational model that follows these operating principles 
has the potential both to maintain the priority of homeland security 
and to build upon the performance of the HSC under its current 
structure.
                               conclusion
    I thank the committee for soliciting my views on this important 
subject, and I applaud you for holding this hearing. Your concern about 
this subject is a strong reminder that homeland security is--and must 
remain--a front-burner issue, and it helps to ensure that the homeland 
security coordinating structure of the future will be strong, 
effective, and recognized by all as a critically important piece of our 
national security apparatus.
    Thank you again, Mr. Chairman and Ranking Member King, and I look 
forward to answering any questions that you may have.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Ms. Townsend to summarize her statement for 
5 minutes.

STATEMENT OF FRANCES FRAGOS TOWNSEND, FORMER HOMELAND SECURITY 
         AND COUNTERTERRORISM ADVISOR TO THE PRESIDENT

    Ms. Townsend. Thank you, Mr. Chairman. I too would like to 
thank you for the opportunity. It is a particular privilege for 
me to appear before this committee, Mr. Chairman, because 
Congressman King is my hometown Congressman. I have had the 
privilege of working with not only you, sir, but a number of--
--
    Chairman Thompson. I won't hold that against you, by the 
way.
    [Laughter.]
    Ms. Townsend [continuing]. A number of Members on the 
committee, including Congresswoman Harman, Congressman Carney, 
so it is a real privilege for me to be here today.
    There is no more solemn responsibility that the President 
bears than to protect the American people. During my 4\1/2\ 
years at the White House, I came to believe that, for this 
reason, organization should be dictated by effectiveness. How 
best to maximize effectiveness will inevitably change over time 
as we as a country continue to weaken al Qaeda and other 
enemies and as the Department of Homeland Security gains 
strength.
    You will not be surprised, based on your experience with 
me, therefore, that my view of this issue is a pragmatic one. 
This is not one that I think lends itself to sort of an easy 
assessment of an organizational chart. I would like to just 
suggest to you a framework in which you might consider this 
issue.
    I think it really comes down to three fundamental criteria 
of any organization. First, there has to be a single person who 
is both responsible and accountable to the President, who 
monitors threat information and who has the authority to 
marshal all instruments of national power--military, 
intelligence, law enforcement, economic, diplomatic, and public 
diplomacy--to defeat the threat.
    The individual cannot wait until threats arrive on our 
shores but must have the responsibility and means to identify 
those threats where they originate and to ensure a coordinated 
response to them. The President's homeland security adviser 
must not be constrained by geographic boundaries that our 
enemies do not respect.
    Second, the homeland security adviser must have direct and 
immediate access to the President. Ultimately, if terrorists 
successfully were to strike the United States, it is the 
President and not his staff who will be rightly held 
accountable by the American people for the failure. The 
homeland security adviser must be able to get to the President 
quickly without the clearance from his or her colleagues on the 
White House staff.
    Unfortunately, there will be times when American lives are 
at stake and the President will need to be advised and 
operational decisions taken and communicated to the relevant 
Cabinet secretary in real time. These sorts of crises do not 
lend themselves to normal bureaucratic process.
    Third, the homeland security issues faced by our Government 
are diverse and many. They range from preparedness and response 
to natural disasters to pandemic planning and biological and 
nuclear threats. These issues are often distinct from the more 
traditional foreign policy issues faced by the National 
Security Council and require experienced staff with significant 
expertise.
    The staff must understand State and local emergency 
management policy issues and concerns. In that regard, during 
my time, I had the privilege to work with Mr. Frazier and a 
number of other State and local officials. The White House must 
be organized not simply to facilitate the homeland security 
policy process but also to anticipate and respond to State and 
local political leaders in times of crisis. The homeland 
security adviser requires adequate staffing to deal with both 
counterterrorism and homeland security issues.
    Mr. Chairman, I do believe we remain a Nation at war with a 
very determined enemy. We have troops deployed in both Iraq and 
Afghanistan, but the national security adviser has many 
important responsibilities in addition to those two theaters. 
For example, he must contend with the Middle East peace 
process, counter-proliferation around the world in places like 
Iran and North Korea. I worry that increasing the span of 
control of the national security adviser could dilute the 
homeland security mission and make it just one more item on an 
already overburdened list.
    That said, I wish to be clear. We should judge any 
reorganization by the substance and criteria that I have 
suggested above. We must be careful not to assume that a merger 
means the President cares less about homeland security. We must 
resist, as I have said, this easy organizational chart test and 
look to the substance of how responsibilities are allocated and 
how we are being protected.
    Again, I would suggest that the committee look at three 
fundamental questions. No. 1, is there one person responsible 
and accountable to the President who looks around the world at 
threats and advises the President? No. 2, does this one person 
have direct and immediate access to the President? No. 3, does 
this person have adequate staff to fulfill his or her 
responsibilities both at a national level and to State and 
local leaders? These are the questions that we should be asking 
and the criteria against which we should judge this effort.
    Mr. Chairman, Ranking Member King, I appreciate the 
opportunity to be here, and I look forward to answering your 
questions.
    [The statement of Ms. Townsend follows:]
             Prepared Statement of Frances Fragos Townsend
                             April 2, 2009
    Chairman Thompson, Ranking Member (and hometown Congressman) King 
and Members of the committee, thank you for the opportunity to appear 
before you today. I am Frances Fragos Townsend. From 2004 until 2008, I 
was Homeland Security and Counterterrorism Advisor to President George 
W. Bush, for whom I chaired the Homeland Security Council. I had 
previously served as Deputy Assistant to the President and Deputy 
National Security Advisor for Combating Terrorism. It is an honor and 
privilege to appear before the committee as you consider the structure 
of national security and homeland security at the White House.
    There is no more solemn responsibility that the President bears 
than to protect American lives. During my 4\1/2\ years at the White 
House I came to believe that, for this reason, organization must be 
dictated by effectiveness. How best to maximize effectiveness will 
inevitably change over time as we as a country continue to weaken al 
Qaeda and other enemies, as the Department of Homeland Security gains 
strength, and as our Government better integrates the capabilities that 
have been built since the tragedy of September 11?
    As you consider the most effective means of organizing the White 
House structure, I respectfully submit that any structure should be 
judged against three fundamental criteria. First, there must be a 
single person both responsible and accountable to the President who 
monitors threat information, and who has the authority to marshal all 
instruments of national power (military, intelligence, law enforcement, 
economic, diplomatic, and public diplomacy) to defeat the threat. This 
individual cannot wait until threats arrive on our shores, but must 
have the responsibility and the means to identify those threats where 
they originate and to ensure a coordinated response to them. The 
President's Homeland Security Advisor must not be constrained by 
geographic boundaries that our enemies do not respect.
    Second, the Homeland Security Advisor must have direct and 
immediate access to the President. Ultimately, if terrorists 
successfully strike the United States, it is the President, and not his 
staff, who will be accountable to the American people for the failure. 
The Homeland Security Advisor must be able to get to the President 
quickly without clearance from his or her colleagues on the White House 
staff. Unfortunately, there will be times when American lives are at 
stake and the President will need to be advised and operational 
decisions taken and communicated to the relevant Cabinet Secretary in 
real time. These sorts of crises do not lend themselves to the normal 
bureaucratic process.
    Third, the homeland security issues faced by our Government are 
diverse and many. They range from preparedness and response to natural 
disasters (ice, flooding, fires, and wind) to pandemic planning and 
biological and nuclear threats. These issues are often distinct from 
the more traditional foreign policy issues faced by the National 
Security Council and require experienced staff with significant 
expertise. The staff must understand State and local emergency 
management policy issues and concerns. They must be organized, not 
simply to facilitate the homeland security policy process, but also to 
anticipate and respond to State and local political leaders in a time 
of crisis. The Homeland Security Advisor requires adequate staffing to 
deal both with the counterterrorism and homeland security issues.
    We remain a Nation at war with a very determined enemy. We have 
troops deployed in both Iraq and Afghanistan but the National Security 
Advisor has many important responsibilities in addition to those two 
theaters. For example, he must contend with the Middle East peace 
process and counter proliferation around the world, but most especially 
in Iran and North Korea. I worry that increasing the span of control of 
the National Security Advisor could dilute the homeland security 
mission and make it just one more item on a list already overburdened.
    That said, I wish to be clear. We should judge any reorganization 
by the substance and criteria that I have suggested above. We must be 
careful not to assume that a merger means the President cares less 
about homeland security. We must resist this easy organizational chart 
test and look to the substance of how responsibilities are allocated 
and how we are being protected.
    Let me suggest three questions that I would hope the committee 
would ask: (1) Is there one person responsible and accountable to the 
President who looks around the world at threats and advises the 
President? (2) Does this one person have direct and immediate access to 
the President? and (3) Does this person have adequate staff to fulfill 
his or her responsibilities? These are the questions that we should be 
asking and the criteria against which we should judge the effort.
    Thank you again for your time and for the privilege of appearing 
before you today. I will be happy to answer any questions you may have 
at this time.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Mr. Palin to summarize his statement for 5 
minutes.

STATEMENT OF PHILIP J. PALIN, SENIOR FELLOW, NATIONAL INSTITUTE 
                   FOR STRATEGIC PREPAREDNESS

    Mr. Palin. Chairman Thompson, Ranking Member King, Members 
of the committee, as I have reviewed the plethora of reports 
and recommendations on how we might reorganize Homeland 
Security Council and as I have listened carefully to the rumors 
emerging from the PSD-1 interview process, I have become 
concerned that well-intended parties are trying to remove 
politics from homeland security. This would be a serious 
mistake.
    I hope we can minimize partisanship in homeland security, 
but in my judgment, we need more not less politics in homeland 
security. The Homeland Security Council is uniquely positioned 
to play a crucial role in domestic political organization for 
homeland security.
    The Homeland Security Council is a political creature. It 
is the legitimate child of the Executive and the Legislature. 
Both mother and father wanted it. The Executive has been 
inclined, I think, to treat the HSC as its sole creation, but 
Congress was wise enough to enshrine HSC in Title IX of the 
Homeland Security Act. There is joint custody. This joint 
custody gives the HSC its legitimacy and provides the 
foundation for its potential coming of age as a profoundly 
important political player.
    I suggest three especially important roles for Homeland 
Security Council: First, supporting the President's role in 
prevention, mitigation, response, and recovery to catastrophic 
threats of every sort--intentional, accidental, and natural; 
second, supporting the President's role in working with the 
governors and the homeland security leadership of the States in 
framing and executing a shared strategy of prevention, 
mitigation, response, and recovery; and third, fulfilling the 
risk assessment role of the Homeland Security Council as set 
out in Title IX.
    The Congress, perhaps someone on this committee, bestowed 
on your child a crucial responsibility. Section 904 of the 
title states that the first function of the HSC is to assess 
the objectives, commitments, and risks to the United States in 
the interest of homeland security. This is precisely right.
    Assessing our comparative risk is the essential foundation 
of homeland security. Assessing risk is a profoundly political 
process. Risk assessment can and must draw on technical 
resources, but choosing which risk is most risky is a political 
choice, by which I mean it is a choice that can only be made by 
people of different perspectives who come together to reason 
with one another.
    It is especially important that the Federal Government 
reason together with the States on preparedness, prevention, 
mitigation, response, recovery, and other activities that will 
seem exotic to specialists in the national security sphere. 
Practically, the States have the local resources to prevent, 
mitigate, respond, and recover. Constitutionally, the States 
are where the founders meant for such power and authority 
principally to reside.
    This nuanced engagement in domestic politics strikes me as 
ill-matched to the strengths of the National Security Council. 
The NSC behaves, as it ought, to support the President's role 
as commander-in-chief. The role of the President and his 
administration in working with the States is an entirely 
different matter.
    The Federal and State governments need to reason together. 
The Department of Homeland Security cannot do this alone. As a 
former governor, Secretary Napolitano can do it better than 
most. Juliette Kayyem, the new assistant secretary for 
intergovernmental programs will contribute a great deal. But 
the Department, to do its work effectively, must have an on-
going and meaningful dialogue going on between the White House 
and the governors' mansions on shared homeland security policy 
and strategy.
    As you know so well, politics is about building coalitions 
and motivating support for tough choices. When the choices are 
too tough for enthusiasm, politics cultivates self-interested 
compliance through a process of shared choosing. In homeland 
security, we must make tough choices. The President's homeland 
security adviser and his or her HSC staff should be and are 
needed to be the President's trusted agents in crafting the 
political compact with the States to make those tough choices.
    I look forward to answering your questions.
    [The statement of Mr. Palin follows:]
                 Prepared Statement of Philip J. Palin
    Chairman Thompson, Ranking Member King, distinguished Members of 
the committee.
    Considering how the National Security Council and Homeland Security 
Council--and their respective White House staffs--relate to one another 
and coordinate their roles is appropriate and important. It would, 
however, be troublesome if such an examination was merely to conclude 
the HSC and its staff should disappear into the National Security 
Council and its staff.
    The Homeland Security Council is not only a creature of the 
Executive. The Council and staff were specifically authorized by Title 
IX of the Homeland Security Act of 2002. Whatever proposals emerge from 
Presidential Study Directive--1, I urge this committee to ensure that 
the particular needs of homeland security are strengthened in any 
reorganization. To advance our Nation's security a reorganization of 
the HSC should:
    1. Support the President's role in prevention, mitigation, 
        response, and recovery to catastrophic threats of every sort--
        intentional, accidental, and natural;
    2. Support the President's role in working with the governors and 
        the homeland security leadership of the States in framing and 
        executing a shared strategy of prevention, mitigation, 
        response, and recovery to catastrophic risk; and
    3. Fulfill the risk assessment role of the Homeland Security 
        Council as set out in Title IX of the Homeland Security Act.
    Some quick comments on each of these priorities:
                      terrorism and other threats
    There is--and ought to be--particular concern that the 
counterterrorism mission not be complicated by the existence of the two 
Councils and separate White House staffs. Counterterrorism is ill-
served by battles over turf. Under Title IX the President can call 
joint meetings of the HSC and NSC. There is well-established precedent 
for dual-hatted NSC and HSC staff. Indeed, Mr. Brennan is currently 
dual-hatted. In recent days the President has given joint assignments 
to the HSC and NSC in regard to border security and cybersecurity. The 
Executive Office of the President has wide latitude in how Presidential 
personnel are assigned and managed. Where there are obvious synergies, 
these collaborative and coordinative mechanisms should be utilized.
    At the same time those expert in counterterrorism and other more 
traditional aspects of national security are unlikely to be as adept in 
addressing hyper-hurricanes, urban wildfire, once-in-a-thousand-year 
flooding, city-smashing earthquakes, potential pandemic, and other 
risks many of which can have intentional or accidental or natural 
origins. There is a need for the Executive Office of the President to 
include individuals with expertise in policy, strategy, public-private 
coordination, and inter-governmental cooperation in regard to the full 
range of catastrophic risks.
    Whether the threat comes from a Katrina or an al Qaeda, the 
President--and the Nation--requires a White House staff with sufficient 
expertise to shape meaningful policy and strategy for prevention, 
mitigation, response, and recovery.
                       working with the governors
    Across this risk continuum the intergovernmental role requires 
particular priority. Catastrophic risk by its very nature must be 
prevented or mitigated in advance. Response and recovery to a true 
catastrophe is very expensive in lives and every other way. In most 
ways a catastrophe is beyond full recovery; that is what makes it a 
catastrophe.
    To effectively prevent and mitigate domestic sources of 
catastrophic risk requires the voluntary and enthusiastic cooperation 
of States and localities. The Federal Government does not have 
sufficient resources or reach to prevent and mitigate on its own. The 
States and localities are practically in the lead in terms of 
prevention and mitigation. The States and localities have the eyes, 
ears, and boots on the ground that the Federal Government does not. One 
recent study noted that States and localities have 2,200,000 personnel 
assigned to core homeland security functions, while the Federal 
Government has about 50,000. It can also be argued that this is the 
balance of responsibility that our Constitution set out for good 
reason.
    Secretary Napolitano, especially as a former Governor, can play an 
important role here. In Judith Kayyem both the Secretary and the 
President have a talented public servant as Assistant Secretary of 
Intergovernmental Programs. But if we are serious about Homeland 
Security there must be an on-going dialogue between the White House and 
the Governors' Mansions. When the principals are not involved then the 
President's Homeland Security Advisor should be in sustained 
conversation and strategic engagement with the 54 State and territorial 
Homeland Security Advisors. This is the way we will generate practical 
strategic progress. This is the way our Constitution expects us to 
behave.
                      political assessment of risk
    Someone inserted into Title IX a very interesting role for the 
Homeland Security Council supported by its staff. Section 904 of Title 
IX states that the first function of the HSC is to, ``assess the 
objectives, commitments, and risks of the United States in the interest 
of homeland security and to make resulting recommendations to the 
President.''
    This is a tough assignment--especially the risk assessment role. It 
is also an assignment exactly right for the White House. As you have 
certainly seen in testimony before this committee, risk is not a 
technical decision. No detailed survey, no supercomputer, no panel of 
experts can antiseptically generate a meaningful set of risk 
priorities. All of these tools can make important contributions to a 
risk decision. But such a judgment--truly made--is preeminently a 
political judgment. Establishing risk priorities is the kind of 
decision where high policy and high politics meet and fold into one 
another. Without this sort of political engagement risk assessments are 
just an illusory numbers game.
              three priorities and the culture of the nsc
    For more than 50 years, the National Security Council has ably 
served the Commander-in-Chief. Every element of the NSC's 
organizational DNA reflects the responsibilities and power of the 
Commander-in-Chief. In foreign and defense policy--and the intelligence 
agencies supporting foreign and defense policy--the President's 
authority is preeminent. The NSC has been a creature of that 
preeminence. Even with the legal, budgetary, and direct command-and-
control authority of the President, the NSC can have difficulty doing 
what is needed to coordinate defense, foreign affairs, and intelligence 
policy. But after 50 years there is an authoritative NSC institutional 
ethos that well serves the President and the Nation.
    This same ethos may well be counter-productive in solving Homeland 
Security problems and especially in addressing the three priorities I 
have set out. For the purposes of domestic counter-terrorism and 
prevention, mitigation, response, and recovery the authority of the 
Commander-in-Chief is not what matters. Most of the Governors will not 
respond positively to a command-and-control approach. Neither will the 
Adjutants General, nor County Sheriffs, nor most Mayors, nor police 
chiefs, nor emergency managers, and then there is the private sector 
that actually owns most of our critical infrastructure. These are 
partners who must be cultivated.
    Some have argued that more of a command-and-control culture is 
needed to motivate sufficient attention to domestic counterterrorism. 
It is true that many local jurisdictions across the United States do 
not give sufficient priority to counterterrorism. But we cannot command 
them to do otherwise. We cannot even pay them enough to do otherwise. 
If we are serious about preventing latter-day Beslans or Mumbais--or 
worse, we must do the hard work of communicating, cooperating, building 
relationships, developing trust, and engaging together in meaningful 
local and regional risk analysis. Only when State and local authorities 
are ready--of their own volition--to invest time, energy, and their own 
dollars into consistent counterterrorism work will we be closer to real 
defense-in-depth regarding the terrorist threat.
    Local authorities are--not unreasonably--actively engaged with 
disasters that threaten with some regularity: floods, hurricanes, 
tornadoes, wildfires, earthquakes--each place and each region is 
different. They are not inclined to give sufficient attention to 
threats that are outside the pattern. They tend to undervalue a whole 
continuum of catastrophic possibilities: intentional, accidental, and 
natural. Given limited financial and human resources this tendency is 
understandable. Given recent financial extremities the tendency has 
been exacerbated.
    The Federal Government can and should play a role in helping ensure 
reasonable local attention to catastrophic possibilities--including 
terrorism. The Federal Government can play this role through 
consulting, educating, training, making grants, and through a variety 
of other mechanisms. When the Federal Government engages State and 
local authorities as peers and fellow professionals, the response will 
usually be productive. Ordering or even paying State and local 
professionals to do something they don't believe in tends to produce 
very creative avoidance behavior.
    These practical issues reflect in a wonderful way our 
constitutional system. We are dramatically reminded that the President 
is the Commander-in-Chief of the armed forces, not the Nation. We are 
forced to recall that we are--even now--a Federal union of sovereign 
States. These are not just abstract constitutional principles. These 
are very helpful realities to recognize, embrace, and use to our 
advantage. As the Executive consults with the Congress on how the 
Homeland Security Council might be more effective, these are realities 
that should be reflected in any reorganization.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Mr. Frazier to summarize his statement for 
5 minutes.

   STATEMENT OF THOMAS C. FRAZIER, EXECUTIVE DIRECTOR, MAJOR 
                   CITIES CHIEFS ASSOCIATION

    Mr. Frazier. Chairman Thompson, Ranking Member King, 
Members of the committee, thank you for the opportunity to 
discuss the potential merger of the National Security Council 
and the Homeland Security Council.
    My name is Tom Frazier. I am the executive director of the 
Major Cities Police Chiefs Association. MCC is the association 
of chiefs of the 56 largest municipal police departments in the 
United States. We are the chief executive officers of 
departments located in metropolitan areas of more than a half a 
million and employ more than a thousand law enforcement 
officers. Collectively, these departments are first responders 
to over 50 million residents in our country.
    On February 23 of this year, President Obama issued 
Presidential Directive--1 on organizing homeland security and 
counterterrorism. The assistant to the President for homeland 
security and counterterrorism was instructed to lead an 
interagency review of ways to reform the organization. The 
directive requires this review to be completed within 60 days.
    Before discussing our specific views on the potential 
merger of the NSC and the HSC, I would like to set the stage a 
bit by articulating our perspective of these two organizations 
and how we, as local first responders, fit into the respective 
missions.
    First, the NSC: Established by the National Defense Act in 
1947, the NSC was originally defined as an organization dealing 
in military and diplomatic issues beyond the U.S. borders. The 
NSC was, and is, staffed by personnel from DOD, the State 
Department and subject matter experts with an intelligence 
community background.
    NSPD-1, signed by President George Bush on February 13, 
2001, reiterated this NSC focus by stating national security 
includes the defense of the United States of America, 
protection of our constitutional system of Government and the 
advancement of U.S. interests around the globe. National 
security also depends on America's opportunity to prosper in 
the world economy.
    This external focus fulfills a vital national need but has 
no components with backgrounds or experience in dealing with 
the vastly different needs and constitutional responsibilities 
of State governments and their tribal and local partners. 
Public safety leadership has only recently had their domestic 
viewpoint represented in this forum.
    Now the HSC: Established by HSPD-1, its mission was defined 
as ensuring coordination of all homeland security-related 
activities among executive departments and agencies and 
promoting the effective development and implementation of all 
homeland security policies.
    We see the missions of these two bodies as being 
fundamentally different. These differences become clear when 
you look at the backgrounds of the principal decision-makers. 
National security decision-makers are primarily Federal and 
accustomed to working at a high level of Federal engagement. 
Homeland security decision-makers include Federal but equally 
and perhaps more importantly are State, Tribal, local, and 
private sector partners. While the NSC deals with issues that 
rarely involve State, Tribal, local, and private-sector 
entities, the HSC must deal with the interests--and the 
constitutional responsibilities of State governments--of these 
partners on nearly every issue.
    Now let us consider jurisdictions, a fundamental concept to 
law enforcement. The NSC deals with military and diplomatic 
issues beyond the jurisdictions of State, Tribal, and local 
governments. The HSC, however, deals in an entirely different 
environment where States have constitutionally defined 
responsibilities over domestic incidents that the Federal 
Government may not share. Response to disasters belongs with 
the jurisdiction in which it occurs. The homeland security 
continuum of prevent, protect, respond, recover is one in which 
the Federal role is to help plan, coordinate and support 
effective programs which build the collective national capacity 
for implementation of the activities mentioned earlier.
    Our recent experience with the new Federal entities, 
specifically the National Counterterrorism Center and its State 
and local analytic cell, or ITACG, is also instructive. A 
presidential adviser whose sole responsibility is homeland 
security is critically important to our Nation's internal 
ability to identify domestic security threats. As our newly 
combined efforts come to maturity, policy and funding issues 
that would be lost in an international effort will still 
receive the focus and importance that is required.
    When viewed from these perspectives, it is clear to us at 
the State and local level of government that our role in the 
NSC is minimal. Our partners in the emergency management and 
fire professions agree. It is equally clear that our collective 
roles in the HSC are fundamental.
    We do not advocate preservation of the status quo. There 
are clearly areas where the HSC can be significantly improved, 
which may be a good topic for a follow-on hearing. But we see a 
merger of the HSC and the NSC as a bad idea, one sure to muddle 
both missions while a newly created DHS absorbs change and 
settles down.
    There are many opportunities to streamline, to improve 
communication and to meet jointly. Let us pursue these first, 
while also working to improve the budget, staffing, and subject 
matter expertise within the HSC itself.
    On behalf of the Major Cities Chiefs Association, I want to 
thank you for allowing MCC to submit its comments on the 
important work that you do. We look forward to continued 
interaction with the committee on strategies to address this 
and future issues. I would be happy to answer any questions you 
may have.
    [The statement of Mr. Frazier follows:]
                Prepared Statement of Thomas C. Frazier
                             April 2, 2009
    Chairman Thompson, Ranking Member King, Members of the committee, 
thank you for this opportunity to discuss the potential merger of the 
National Security Council and the Homeland Security Council.
    My name is Tom Frazier. I'm the Executive Director of the Major 
Cities Chiefs Association. MCC is the association of the Chiefs of the 
56 largest municipal police departments in the United States. MCC 
members are the Chief Executive Officers of police departments located 
within metropolitan areas of more than 500,000 population, and which 
employ more than 1,000 law enforcement officers. Collectively, these 
departments are the first responders to over 50 million residents in 
our country.
    I'm a retired law enforcement executive, having served a career in 
the San Jose, California Police Department and as Police Commissioner 
in Baltimore, Maryland. I also had the honor of serving as the Director 
of the COPs Office in the Department of Justice during the second 
Clinton Administration.
    On February 23, 2009, President Obama issued Presidential 
Directive--1 on Organizing Homeland Security and Counterterrorism. The 
Assistant to the President for Homeland Security and Counterterrorism 
was instructed to lead an interagency review of ways to reform the 
White House organization for counterterrorism and homeland security. 
The Directive requires this review to be completed within 60 days.
    Before discussing our specific views of the potential merger of the 
NSC and the HSC, I'd like to set the stage a bit by articulating our 
perspective of these two organizations, and how we, as local first 
responders, fit into their respective missions.
    First, the NSC. Established by the National Defense Act of 1947, 
the NSC was originally defined as an organization dealing in military 
and diplomatic issues beyond the U.S. borders. The NSC was, and is, 
staffed by personnel from DOD, the State Department, and subject matter 
experts with an intelligence community background. NSPD-1, signed by 
President George W. Bush on February 13, 2001 reiterated this NSC focus 
by stating that, ``National security includes the defense of the United 
States of America, protection of our constitutional system of 
government, and the advancement of United States interests around the 
globe. National security also depends on America's opportunity to 
prosper in the world economy.''
    This external focus fulfills a vital national need, but has no 
components with backgrounds or experience dealing with the vastly 
different needs and constitutional responsibilities of State 
governments, and their tribal and local partners. Public safety 
leadership has only recently had their domestic viewpoint represented 
in this forum.
    Now the HSC. Established by HSPD-1, signed by President Bush on 
October 29, 2001, its mission was defined as, `` . . . ensuring 
coordination of all homeland security-related activities among 
executive departments and agencies and promoting the effective 
development and implementation of all homeland security policies.''
    We see the missions of these two bodies as being fundamentally 
different. These differences become clear when you look at the players. 
National security players are primarily Federal, and accustomed to 
working at that level of Federal engagement. Homeland security players 
include Federal, but equally and perhaps more important are State, 
Tribal, local, and private sector partners. While the NSC deals with 
issues that rarely involve State, Tribal, local, and private sector 
entities, the HSC must deal with the interests--and the constitutional 
responsibilities of State governments--of these partners on nearly 
every issue.
    Now let's consider jurisdictions--a fundamental concept to law 
enforcement organizations. The NSC deals with military and diplomatic 
issues beyond the jurisdictions of State, Tribal, and local 
governments. The HSC, however, deals in an entirely different 
environment where States have constitutionally-defined responsibilities 
over domestic incidents that the Federal Government may not share. 
Response to disasters belongs with the jurisdiction in which it occurs. 
The homeland security continuum of ``prevent-protect-respond-recover'' 
is one in which Federal role is to help plan, coordinate--and support--
effective programs which build the collective national capacity for 
implementation of the activities mentioned earlier.
    Our recent experience with the new Federal entities, specifically 
the National Counter-Terrorism Center and its State and local analytic 
cell, or ITACG, is also instructive. A Presidential advisor whose sole 
responsibility is homeland security is critically important to our 
Nation's internal ability to identify domestic security threats. As our 
newly combined efforts come to maturity, policy and funding issues that 
would be lost in an international effort will still receive the focus 
and importance that is required.
    When viewed from these perspectives, it is clear to us at the State 
and local level of government that our role in the NSC is minimal. Our 
partners in the emergency management and fire professions agree. It is 
equally clear that our collective roles in the HSC are fundamental.
    Both the NSC and the HSC have extraordinarily important, but very 
different missions. These missions are set to grow even further in 
complexity, when you consider General Jones' plans to draw issues like 
cyber-security, overdependence on fossil fuels, disease, poverty, 
corruption, and the economic crisis into NSC's traditional mission 
areas. Likewise, the HSC must now deal with a whole range of growing 
threats: cross-border issues with Canada, the potential spill-over of 
Mexican drug war violence into the United States, and the proliferation 
of home-grown radicals.
    We do not advocate the preservation of the status quo. There are 
clearly areas where the HSC can be significantly improved--which may be 
a good topic for a follow-on hearing. But we see a merger of the HSC 
and the NSC as a bad idea--one sure to muddle both missions while a 
newly created DHS absorbs change and settles down.
    There are many opportunities to streamline, to improve 
communication, and to meet jointly. Let's pursue these first, while 
also working to improve the budget, staffing, and subject matter 
expertise within the HSC itself.
    One final thought while I have your collective ears. At present 
there are approximately 108 different congressional committees that 
provide some level of oversight to DHS. A concerted effort by Congress 
to streamline this Gordian knot of often duplicative and conflicting 
oversight would be a fundamental improvement.
    On behalf of the Major Cities Chiefs Association, I want to thank 
you for allowing MCC to submit its comments on the important work that 
you do. We look forward to continued interaction with the committee on 
strategies to address this and future issues.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Professor Hoffman to summarize his 
statement for 5 minutes.

   STATEMENT OF BRUCE HOFFMAN, PROFESSOR, SCHOOL OF FOREIGN 
                 SERVICE, GEORGETOWN UNIVERSITY

    Mr. Hoffman. Thank you, Mr. Chairman and Ranking Member 
King, for the opportunity to testify before the committee on 
this important issue.
    ``Mom, I'm in Somalia! Don't worry about me; I'm okay,'' 
was how 17-year-old Burhan Hassan's worried mother discovered 
where her son had gone weeks after he and five other Somali-
American youths disappeared from their homes in the 
Minneapolis-St. Paul area. According to Abdisalem Adam, a 
teacher and community leader, up to now, no one knows who 
recruited them, but they obviously did not wake up one morning 
and decide to go to Somalia.
    Suspicions have focused on a largely unknown, radical 
Somali organization, called al-Shabaab. Interestingly, the most 
credible terrorist threat that had surrounded Barack Obama's 
inauguration as the 44th President of the United States had not 
come from al Qaeda or its leader, Osama bin Laden, or his 
deputy, Ayman al-Zawahiri, but from these youths and al-
Shabaab.
    Although the threat never materialized, it nonetheless shed 
important light on the albeit obscure terrorist group that in 
fact presents U.S. authorities with the most serious evidence 
to date of a homegrown terrorist recruitment problem right here 
in the American heartland. More worrisome still is the fact 
that the first time authorities reportedly learned of this 
potential threat was when the families of the three boys came 
forward with information about their departure.
    Recently, new evidence has come to light which suggests 
that the six Somali-Americans were only part of a larger 
contingent of U.S. citizens lured to Somalia. As many as 30 
persons are believed to have left the United States to train in 
terrorism and guerrilla warfare in that violence-plagued East 
African country. Indications that recruitment of U.S. nationals 
to train in Somalia was not a problem restricted to the 
Minneapolis-St. Paul area have also surfaced.
    These developments raise anew serious concerns about 
America's homeland security and the threat of new terrorist 
attacks. Protecting and securing the United States from 
terrorism, it has long been argued, ultimately depends on 
State, local, and Tribal law enforcement officers who are both 
the first and last lines of homeland defense.
    Their familiarity with the communities which they patrol 
enables these officers to observe and detect criminal activity 
that may indicate a terrorist plot and thus thwart its 
commission. Hence, effectively countering terrorism is more 
than a technical issue involving top-down Federal guidance, 
direction, and intelligence dissemination. Rather, it requires 
that State, local, and Tribal agencies have the requisite 
training, education, knowledge and up-to-date intelligence to 
identify and respond effectively and appropriately to these 
threats.
    Given that my expertise is on terrorists and their behavior 
and not on the U.S. Government and its bureaucratic national 
security structure, I cannot provide a definitive answer in 
respect of the current proposal to fold the HSC into the NSC. 
What does, though, seem clear is that this proposed 
consolidation will only work provided that State, local, and 
Tribal law enforcement have a strong, forceful, and credible 
representative and advocate on the NSC governing all matters 
pertaining to homeland security. That is not only terrorism but 
disaster preparedness and response, infrastructure protection, 
border security, immigration, incident management, and health 
and medical planning and response.
    The United States has, of course, come a long way since the 
establishment of the HSC and the DHS in terms of both the 
capacity and capability to defend our Nation against terrorist 
attack. But as the Somali case and the surprising international 
reach of a hitherto obscure and local terrorist movement 
demonstrates, we are faced with a continuing terrorist threat 
from al Qaeda and associated movements that is at once as 
operationally durable as it is evolutionary and elusive in 
character.
    Accordingly, in so dynamic a threat environment, our 
responses and preparations need to be equally as evolutionary, 
flexible, and robust. President Obama's first Presidential 
Study Directive embraces this notion in its call for a 
comprehensive interagency review of our national and homeland 
security architecture. Although the logic behind this statement 
is indisputable, it must a priori acknowledge that homeland 
security encompasses concepts and missions that do not 
necessarily fit comfortably with traditionally defined national 
security priorities and concerns.
    Further, the President and Congress will need to be 
convinced that State, local, and Tribal homeland security 
authorities will have a forceful champion in any reorganization 
of the HSC who can effectively serve as their advocate, 
explaining their needs and expectations and ensuring Federal 
responsiveness. These needs will invariably be different from 
traditional national security concerns because States and 
localities, not Federal agencies, will often be in the lead in 
many homeland security missions.
    In sum, the cop on the street may likely be the key player 
in disrupting and preventing a terrorist incident. Police 
officers not only need to know what to look for, but what they 
are looking for may be a small piece of a larger puzzle that 
may reveal broader links with terrorists either in this country 
or abroad.
    Thank you very much, I look forward to your questions.
    [The statement of Mr. Hoffman follows:]
                  Prepared Statement of Bruce Hoffman*
---------------------------------------------------------------------------
    * This testimony incorporates parts of a report commissioned by the 
SITE Intelligence Group. It appears in the April 2009 issue of InSITE, 
the monthly electronic newsletter published by SITE.
---------------------------------------------------------------------------
    ``Mom, I'm in Somalia! Don't worry about me; I'm OK,'' was how 17 
year-old Burhan Hassan's worried mother discovered where her son had 
gone weeks after he and six other Somali-American youths disappeared 
from their homes in the Minneapolis-St Paul area. Almost without 
exception, the youths who slipped away were described as good boys \1\ 
who were ``good students [who] had no problems with the law.''\2\ But 
what especially troubled their relatives or others in the tight-knit 
emigre community was the that no one could explain how the impoverished 
young men were able to pay for the $2,000 airline tickets they used to 
travel to Somalia.\3\ ``My nephew, he doesn't have money for a 
ticket,'' the uncle of one lamented. ``None of these kids do.''\4\ 
According to Abdisalem Adam, a teacher and head of the local Dar al-
Hijrah Islamic Center, ``Up to now, no one knows who recruited them. 
But they obviously did not wake up one morning and decide to go [to 
Somalia].''\5\
---------------------------------------------------------------------------
    \1\ Dina Temple-Raston, ``Missing Somali Teens May Be Terrorist 
Recruits,'' National Public Radio: Morning Edition, 28 January 2009 
accessed at: http://www.npr.org/templates/story/
story.php?storyId=99919934.
    \2\ Abdizirak Bihi, a community activist who represents the 
families of the six young men quoted in Oren Dorell, ``Somalis may be 
leaving Minn. for jihad,'' USA Today, 18 December 2008 accessed at: 
http://www.usatoday.com/news/nation/2008-12-18-somalis_N.htm.
    \3\ Ibid. See also Elizabeth Mohr, ``Missing Somalis' Families 
Speak Out: They Fear Males Were Brainwashed For Jihad Overseas,'' St. 
Paul Pioneer Press, 7 December 2008; and, Abdi Aynte, ``Are jihadist 
groups luring Minnesota Somalis back to fight?'' The Minnesota 
Independent, 23 December 2008 accessed at: http://
minnesotaindependent.com/21144/did-jihadist-recruiters-lure-local-men-
home-to-fight.
    \4\ Associated Press, ``Young Somali men missing from 
Minneapolis,'' USA Today, 26 November 2008 accessed at: http://
www.usatoday.com/news/nation/2008-11-26-missing-somalis_N.htm.
    \5\ Quoted in Ibid.
---------------------------------------------------------------------------
    Suspicions, however, focused on a largely unknown, radical Somalia 
organization, called al-Shabaab (Arabic: ``the youth'' or more 
accurately, the ``young guys'').\6\ Interestingly, the most credible 
terrorist threat that had surrounded Barack Obama's inauguration as the 
44th president of the United States on 20 January 2009 \7\ had not come 
from al Qaeda or its leader, Osama bin Laden, or his deputy, Ayman al-
Zawahiri but from these youths and al-Shabaab. A bulletin jointly 
issued the day before the inauguration by the Department of Homeland 
Security (DHS), Federal Bureau of Investigation (FBI) and the U.S. 
intelligence community to State and local law enforcement had advised 
that persons affiliated with al-Shabaab might attempt to stage an 
attack in the United States on Inauguration Day.\8\ Although the threat 
never materialized, it nonetheless shed important light on an albeit 
obscure terrorist group that in fact presents U.S. authorities with the 
most serious evidence to date of a ``homegrown'' terrorist recruitment 
problem right in the American heartland. More worrisome still is the 
fact that the first time authorities reportedly learned of this 
potential threat was when the families of three of the boys came 
forward with information about their departure.
---------------------------------------------------------------------------
    \6\ Al-Shabaab also has used, or is know by, the following names: 
Harakat al-Shabaab al-Mujahideen; Hisb'ul Shabaad; Hizbul Shabaab; Al-
Shabaab al-Islam; Al-Shabaab al-Islamiya; Al-Shabaab al-Jihad; Harakat 
Shabaab al-Mujahidin; Mujahideen Youth Movement; Mujahidin Al-Shabaab 
Movement; Unity of Islamic Youth; The Youth; Youth Wing' and, Popular 
Resistance Movement in the Land. See Office of Intelligence and 
Analysis, Reference Aid: Foreign Groups in Focus: Al-Shabaab, IA-0110-
09, Unclassified//For Official Use Only, p. 5. Note: only material from 
this DHS report marked unclassified has been cited in this testimony.
    \7\ See Spencer S. Hsu, ``Threat `Uncertain': Security Alert Issued 
For Inauguration Day,'' Washington Post, 21 January 2009; Paul Duggan 
and Mary Beth Sheridan, ``Security Efforts Are Mostly a Success, 
Officials Say,'' Washington Post, 21 January 2009; and, Temple-Raston, 
``Missing Somali Teens May Be Terrorist Recruits''.
    \8\ Hsu, ``Threat `Uncertain': Security Alert Issued For 
Inauguration Day''; and, Duggan and Sheridan, ``Security Efforts Are 
Mostly a Success, Officials Say''.
---------------------------------------------------------------------------
    Recently, new evidence has come to light which suggests that the 
six Somali-American were only part of a larger contingent of U.S. 
citizens lured to Somalia. As many as 27 persons are believed to have 
left the United States to train in terrorism and guerrilla warfare in 
that violence-plagued East African country. Indications that 
recruitment of U.S. nationals to train in Somalia was not a phenomenon 
restricted to the Minneapolis-St Paul area only have also surfaced. 
Hence, in addition to the FBI's investigations in the Minneapolis-St 
Paul area, others are reportedly being conducted in Boston and San 
Diego as well. These developments raise anew serious concerns about 
America's homeland security and the threat of new terrorist attack.
    Protecting and securing the United States from terrorism, it has 
long been argued, ultimately depends on State, local, and Tribal law 
enforcement officers who are both the first and last lines of homeland 
defense. Their familiarity with the communities which they patrol 
enables these officers to observe and detect criminal activity that may 
indicate a terrorist plot and thus to thwart its commission. Hence, 
effectively countering terrorism is more than a technical issue 
involving top-down Federal guidance, direction, and intelligence 
dissemination. Rather, it requires that State, local, and Tribal 
agencies have the requisite training, education, knowledge, and up-to-
date intelligence to identify and respond effectively and appropriately 
to these threats. Effective bottom-up as well as top-down interaction 
is thus a vitally important element of America's capacity to respond to 
terrorist threats and attacks.
    The case of the Somali youths cries out both for the intimate 
knowledge and bottom-up information that community-oriented local law 
enforcement is best situated to provide and the top-down big-picture 
strategic knowledge and intelligence-driven guidance and direction that 
only Federal authorities can furnish to their State, local, and Tribal 
counterparts. The fact that the radicalization, indoctrination, and 
alleged recruitment of young Somali-Americans to terrorism was 
apparently missed at all levels of our national and homeland security 
apparata until it had already occurred, underscores the critical 
importance of this nexus of Federal, State, local, and Tribal 
authorities working closely together to identify, prevent, and 
interdict such threats from top-down as well as bottom-up dimensions. 
Accordingly, the fundamental criteria upon which any bureaucratic 
reorganization of America's homeland security must be judged is whether 
it will strengthen and further support these vital Federal and State, 
local and Tribal interactions; consolidate national security and 
domestic law enforcement capabilities; and more effectively than any 
other model or previous organization provide for the security and 
safety of the United States from terrorist attack.
    Given that my expertise is on terrorists and their behavior and not 
on the U.S. Government and its bureaucratic national security 
structure, I cannot provide a definitive answer to the above question 
in respect of the current proposal to fold the Homeland Security 
Council (HSC) into the National Security Council (NCS). What does, 
though, seem clear is first, that this proposed consolidation will only 
work provided that State, local, and Tribal law enforcement have a 
strong, forceful, and credible representative and advocate on the NSC 
governing all matters pertaining to homeland security (e.g., not only 
terrorism; but disaster preparedness and response, infrastructure 
protection, border security, immigration, incident management, and 
health and medical planning and response); and second, that the Somali 
case provides fresh evidence--if any more were needed--of the dynamic 
and evolving threat environment that America still finds itself in 
nearly 8 years since the September 11, 2001 attacks.
    The United States has of course come a long way since the 
establishment of the HSC and the DHS in terms of both the capacity and 
capability to defend our Nation against terrorist attack. But, as the 
Somali case and the surprising international reach of a hitherto 
obscure and local terrorist movement demonstrates, we are faced with a 
continuing terrorist threat from al Qaeda and associated movements that 
is at once as operationally durable as it is evolutionary and elusive 
in character. Accordingly, in so dynamic a threat environment our 
responses and preparations need to be equally as evolutionary, 
flexible, and robust.
    President Obama's first Presidential Study Directive (PSD-1) 
implicitly embraces this notion in its call for a comprehensive 
interagency review of our national and homeland security 
architecture.\9\ ``I believe that Homeland Security is 
indistinguishable from National Security--conceptually and 
functionally,'' the President explained. ``They should be thought of 
together rather than separately.''\10\ Although the logic behind this 
statement is indisputable; it must a priori acknowledge that homeland 
security encompasses concepts and missions that do not necessarily fit 
comfortably with traditionally-defined national security priorities and 
concerns--at least those that have historically been within the NSC's 
remit.
---------------------------------------------------------------------------
    \9\ ``Organizing for Homeland Security and Counterterrorism,'' 
Presidential Study Directive--1, The White House, 23 February 2009 
accessed at: www.fas.org/irp/offdocs/psd/psd-1.pdf.
    \10\ Quoted in Ibid.
---------------------------------------------------------------------------
    Not only are the key stakeholders different (involving State, 
local, and Tribal jurisdictions as opposed to Federal agencies and 
departments only) but the need for broad, not limited, sharing of 
information with State, local, and Tribal authorities remains another 
salient difference. Further, it is often forgotten that homeland 
security pertains not only to man-made disasters (that is, terrorism); 
but also to natural ones. Accordingly, whomever in the Executive branch 
is tasked with homeland security responsibilities will likely find a 
disproportionate amount of their time and attention consumed by 
preparedness, planning, and response to hurricanes and floods, as well 
as with the threats posed by al Qaeda and other terrorists. Further, 
issues of particular immediacy today, such as border security and 
immigration, have not traditionally been direct NSC concerns and, for 
that matter, neither have incident management, infrastructure 
protection, and heath and medical planning and preparedness.
    Both the President and Congress must therefore be confident that 
the bureaucratic absorption of the HCS into the NSC does not result in 
the diminution of the priority given to each of the above homeland 
security missions. In this respect, the President and Congress have to 
be satisfied that relevant homeland security issues will be afforded 
the same attention as more traditional national security ones. Further, 
processes and procedures will need to be in place that assure the 
timely presentation of homeland security matters to the President and 
Cabinet.
    Finally, the President and Congress will need to be convinced that 
State, local, and tribal homeland security authorities will have a 
forceful champion in any reorganization of the HSC who can effectively 
serve as their advocate, explaining their needs and expectations and 
ensuring Federal responsiveness. These needs will invariably be 
different from traditional national security concerns because States 
and localities--and not Federal agencies--will often be in the lead on 
many homeland security missions. Indeed, issues like intelligence 
sharing, border security, immigration, disaster management, incident 
control and a wide range of planning, mitigation, and recovery missions 
have hitherto not typically been the focus of NSC efforts--much less 
within its specific remit.
    American police departments and law enforcement agencies--and 
especially their street cops and patrol officers--need more and better 
information about terrorism and immediate threats. The cop on the 
street, as this testimony has argued, may likely be the key player in 
disrupting and preventing a terrorist incident. Police officers not 
only need to know what to look for but that what they are looking for 
may be a small piece of the larger puzzle that may reveal terrorist 
connections (e.g., investigations into crimes involving smuggling, 
human trafficking, fraud, extortion, narcotics that may also be 
terrorist activities).
    But to do so, America's State, local, and Tribal law enforcement 
personnel need information and intelligence, training and education 
that hitherto has not been a concern of, or within, the NSC's ken. This 
need is especially acute now, in the wake of the Somali case, because 
unlike other countries, such as the United Kingdom and Israel, 
terrorism is not necessarily a daily issue for the U.S. law enforcement 
officer. For that reason, American law enforcement requires information 
and intelligence to keep pace with the terrorism threat and the 
knowledge needed to prevent, pre-empt, or respond to a terrorist 
attack.
    Providing American State and local law enforcement jurisdictions 
with the knowledge, training, and intelligence resources they require 
to effectively pre-empt and prevent terrorist attacks endows the 
homeland with enhanced layers of defense. This enables street cops not 
only to better counterterrorist threats but also to become better crime 
fighters. Strengthening State, local, and tribal authorities' threat 
awareness enhances the country's security by enabling better and more 
focused preparedness, training, planning, and response.
    In sum, the revelations surrounding al-Shabaab and the Somali 
emigre community emphasize the need to anchor changes in the American 
national security structure that will more effectively close the gaps 
in the relationship, communication, and appropriate intelligence 
sharing between Federal authorities with State, local, and Tribal 
jurisdictions. This necessitates that the American national and 
homeland security structure be organized for maximum efficiency, 
intelligence, and information sharing, and the ability to function 
quickly and effectively in the face of so dynamic and evolutionary 
threat environment.

    Chairman Thompson. Thank you very much.
    We will have a series of votes. I will try to get through 
my questions and yours, Peter, if that is good. It will take 
about 60 minutes to do that and then we will come back.
    We appreciate the divergence of testimony of the witnesses 
this morning and we got exactly what we were looking for.
    I guess to the five of you, if you could, for me, if the 
President ultimately decided to dissolve the Homeland Security 
Council and if legislation is required going forward, what can 
you tell us as to how we can best ensure State and local and 
Tribal partners will be integrated into the policymaking 
apparatus?
    I will start with you, Mr. Wainstein.
    Mr. Wainstein. Thank you, Mr. Chairman. I know that there 
have been a number of studies done and proposals, and I think 
Mr. Palin referenced them. One component of many of these 
proposals has been to have either a series of liaisons within 
the new entity that are liaisons to State, local, and Tribal or 
an advisory committee or both.
    There have been some look-backs to the HSAC advisory 
committee that was instituted 7 years ago and how that faired 
and the extent to which it was effective or not sufficiently 
effective in keeping State, local, and Tribal linked up. My 
sense is, in talking to the folks who are doing the study for 
President Obama, is that they are looking at a number of 
different mechanisms like that and are very focused on the 
concern of keeping a tight connection with State, local, and 
Tribal. So their proposal might well have some feature like 
that, which I guess could, then, become a piece of any 
resulting legislation that comes out of Congress.
    Ms. Townsend. Mr. Chairman, my concern about liaisons and 
advisory committees is that they tend not to have daily input, 
sort of be part of the DNA of the new organization and bring 
sufficient muscle to it. One of the things that I had tried to 
do--it was very difficult at the time but I think needs to be 
looked at--is actually integrated State and local officials 
into the council, whatever the structure is, is actually having 
them serve, so there is a daily voice and a daily reminder.
    One of the most beneficial things in my background was the 
fact that I had been a local prosecutor before I entered the 
Federal Government, and my understanding was based on my own 
experience. So bringing people like that--I worked with Ray--
Commissioner Kelly of the NYPD to have an officer assigned so 
that I had somebody constantly looking at every issue and 
bringing that perspective to it. I think that is important.
    It is not sufficient for it just to be in the Department. 
The Department does have an intergovernmental liaison. You need 
somebody at the political level at the White House who is 
engaging with political leaders at the State and local level, 
including chiefs of police and elected officials.
    Chairman Thompson. Mr. Palin.
    Mr. Palin. I heard the question to relate to statutory 
adjustments that might be made. I don't think this committee 
will like my answer, because I think, if in fact the HSC is 
done away with and the Congress agrees that that is in the 
White House self-interest, I think the best way to take care of 
the assurances that--and the important assurances that you have 
asked about, Mr. Chairman, is for the National Security Act to 
be amended.
    Chairman Thompson. Well, we didn't ask for agreement by 
witnesses, so you won't hurt our feelings.
    [Laughter.]
    Chairman Thompson. Thank you very much.
    Mr. Frazier.
    Mr. Frazier. Mr. Chairman, as the ITACG brings a State and 
local perspective to National Counterterrorism Center and a 
valuable perspective, the traditional intelligence collection 
world does not see things through the same lens that an 
experienced State and local investigator or executive does. I 
use that example to say that inside the NSC, it would be 
necessary to have a--and I agree with Ms. Townsend--a full-time 
component that can represent that point of view.
    Our perpetual difficulty with Department of Homeland 
Security is that there are so few law and fire practitioners in 
the decision-making machinery that things occur that, when you 
have to put them into practice on the ground, they just don't 
make sense. The only way to, in my view, prevent those kinds of 
mistakes from occurring is to have someone at a level to 
provide input before decisions are made.
    Chairman Thompson. Thank you.
    Professor Hoffman.
    Mr. Hoffman. Well, the benefits of going last--I agree 
completely with Ms. Townsend and Mr. Frazier. I think the 
stakeholders in homeland security issues are very different 
than for those in stereotypical national security issues, and 
there has to be that strong representation present in the White 
House as well as at the DHS.
    Chairman Thompson. Thank you.
    The gentleman from New York for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I would like to ask Mr. Wainstein and Ms. Townsend, based 
on their real-life experience in the White House--and I will 
exclude this administration for now, but every administration 
up 'til now has strong personalities, often with competing 
interests, with the best of intentions, but turf battles become 
a reality. Based on your experience, if the homeland security 
adviser does not have that independent status, what are the 
chances, with a dominant personality as, say, head of the NSC, 
who does not share your concerns on homeland security, and they 
could be very well intentioned, could that freeze you out or 
minimize the importance of the homeland security adviser?
    Ms. Townsend. Congressman King, you are absolutely right. I 
mean, I enjoyed an extraordinary relationship both with 
Secretary Rice when she was the national security adviser, and 
you remember Steve Hadley was a deputy, an equal of mine, 
before he was promoted, and then he and I were both equals as 
assistants to the President. So I didn't have that problem.
    I will tell you my concern about the merger is if--that is 
why I said one of my fundamental criteria is direct access to 
the President. If what a reorganization and a merger means is 
that the homeland security has to report through the national 
security adviser, yes, you do have the opportunity for that 
person, if there is a conflict or if there is a personality 
problem between the two, to be frozen out of the process to 
influence directly the President.
    I have a lot of confidence in both Jim Jones and John 
Brennan, so I don't imagine that even in this administration, 
but you do worry. The second point to that, I would say, is 
rank actually, as you are well aware, in this town really 
matters. So if you want the individual who has got 
responsibility for the homeland security matters to be able to 
resolve either a conflict between Cabinet members or a conflict 
between Federal policy and State and locals--and, by the way, 
the ITACG is the perfect example.
    Here was a case where Congresswoman Harman called me, was 
very exercised about ensuring that we had local representation 
at the NCTC, and we were able to resolve that. But that was a 
conflict at the Federal level over policy that required the 
homeland security adviser to actually sit down with the Cabinet 
secretary and break through it to make sure we got that done. 
So you need somebody with the rank and the access to be able to 
actually break through all that and get a Cabinet secretary or 
Cabinet secretaries to answer the phone call and resolve it.
    Mr. King. Mr. Wainstein.
    Mr. Wainstein. Yes, Congressman King, appreciate the 
question. Like Fran, I had the pleasure of working with Steve 
Hadley, who was wonderful if anything. He bent over backwards 
to include me and include HSC and to make sure that our issues 
got the highest level attention.
    My sense is that the folks in those positions now share 
that approach. But it is a real concern, and there are a number 
of different ways of addressing it or making sure that the 
subordination of homeland security issues doesn't come to pass 
in the future. Fran, I think, has touched on many of them.
    But I can't underemphasize how important it is that the 
homeland security adviser and his or her people are fully 
represented in National Security Council meetings. If this ends 
being in the National Security Council, the homeland security 
adviser needs to be there in those meetings and very 
importantly needs to have a set schedule of meetings with the 
President in the Oval Office.
    The national security adviser, just because of the pace and 
the nature of the job, is going to spend a lot of time with the 
President. The homeland security adviser won't necessarily 
spend as much time but needs to have those designated times he 
or she is in the Oval Office. That makes sure there is an 
opportunity to get those issues on the President's plate and 
make sure that the profile of those issues stays high. So that 
is why, as I said in my introductory remarks, it is important 
to put a structure in place that ensures high-level attention.
    Mr. King. I want to make it clear, it is my experience with 
the Bush administration, and I am sure it is going to--the 
Obama administration too--I don't necessarily foresee a 
homeland security problem, but human nature being what it is, I 
do know from dealing with the Clinton administration, the Bush 
administration, there certainly were some of those conflicts in 
foreign policy as to who was in and who was out and who was 
excluded. Human nature being what it is, there is no reason why 
that also couldn't apply to homeland security, and that is the 
concern I have.
    My time is running out. I just would add also that, by its 
nature, foreign policy is in the news. I mean, people know what 
is going on in Afghanistan, know what is going on in Iraq. 
Homeland security, as you well know, could be off the front 
pages for weeks, months, years at a time, as we saw between 
1993 and 2001, but then it happened. Again, to keep people 
focused on it--what it--again, even best-intentioned people--
that is why I am leaning toward keeping that separate position 
so that people's attention won't be lost.
    With that, I yield back, and I thank you.
    Chairman Thompson. Thank you very much.
    As I indicated, we have a series of votes on the way right 
now that should take about an hour. So the committee will stand 
in recess for about 1 hour or as soon as the last vote is 
taken.
    [Recess.]
    Chairman Thompson. We would like to reconvene the recessed 
hearing. I apologize to our witnesses, but when we set 
hearings, as you know, they don't necessarily correspond with 
votes on the floor. So you have now had first-hand experience 
of the conflict.
    Ms. Townsend, I understand you have a previous commitment 
that you can't break. I do understand that, but I think Ms. 
Harman, who is our next Member to ask questions, wanted to make 
a comment in addition to ask questions.
    The gentlelady from California for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman, and thank you to our 
panel for your patience. Welcome to our world.
    My special welcome to two of the panelists who have been 
coconspirators for many years, one of whom is Fran Townsend. I 
thought your service in the White House was exemplary, and you 
were always available to counsel on a bipartisan basis or a 
nonpartisan basis about what we ought to do to protect the 
homeland. I miss you. I want you to know that. You are a reason 
why I think there needs to be someone exactly like you in the 
White House, whether that person works for the National 
Security Council or not, someone with that level of expertise 
and that level of availability. Otherwise, I worry about the--I 
worry about the future.
    To you, Bruce Hoffman, you have, again, been a really 
invaluable counselor and continue to be on how to get some of 
our legislation right, how to navigate the shoals out there, 
which are sometimes difficult. Some of you tuned into 
yesterday's hearing, and you got the frontal view of that. But 
all of us up here think that the terrorists aren't going to 
check our party registration before they blow us up.
    To Peter King, who is not here right now, I do actively use 
the word terrorism. I served on the National Council on 
Terrorism in 1999 and 2000, then chaired by L. Paul Bremer. One 
of the other members was Juliette Kayyem, whom I think is an 
excellent pick for the State and local position at the Homeland 
Security Department. I am very glad she is going there.
    I do worry, just as Bruce does, about what is happening to 
kids in Minneapolis or pick another place. When are we going to 
learn about that on the front end before it is too late? So I 
freely use the word. I, on the other hand, however, think we 
have overplayed the fear card. What we should do is prepare, 
not scare, the public in America about the real terror threats 
we face. So that is the end of that little speech.
    Let me put some of my thoughts out about this and invite 
comments from anybody. No. 1, I agree with the testimony that 
the organization should be dictated by effectiveness. I am not 
sure how the boxes should line up. I am sure that we need a 
Fran Townsend equivalent in the White House. Boy, is she proof 
that power comes in small sizes.
    So I have great regard and affection for the national 
security adviser, Jim Jones. I know he is working hard at 
realigning his authorities, because it is true that, in the 
past, the National Security Council has operated mostly by 
using detailees and it has had a tiny budget. It may not be the 
most effective--it is not the most effective organization. But 
we can't let it eat the homeland security function in a way 
that puts homeland as number 46 on a list of 45 priorities. 
That would be dreadful; that would compromise our security. 
More Americans are at risk from terror attacks here than 
anywhere else in the world, and so we have to keep the focus 
and expertise here.
    Let me just probe with you, having said all that--and one 
more thing. I am disappointed, at least by reports of two 
actions that Janet Napolitano may be taking. One is she has not 
followed a friendly suggestion from here to name someone with a 
law enforcement background as the new head of intelligence and 
analysis. We think, or I think, that that would send the right 
message about reorganizing that function.
    No. 2, there is a Homeland Advisory Committee that has 
existed and functioned well for some years headed by Bill 
Webster, whom I think has impeccable credentials, which I 
gather is either going to be replaced or retired. I think that 
is a mistake too. I think very able people in both parties 
serve on that council.
    So in my 47 seconds, I would just invite reactions to what 
I have said and any suggestions about the specific 
qualifications of the person in the White House, regardless of 
what organization box that person is in, the person who is 
charged with focusing on homeland security matters for the 
President.
    Ms. Townsend. Congresswoman Harman, thank you very much for 
your very generous remarks. It was a great privilege to me to 
be able to work on a nonpartisan basis, and I had the--frankly, 
I had the freedom to do that because of the authority vested in 
me by the President, and so it really was--I think we got a lot 
of good things done that way.
    I will say that I think it is hard to come up with what the 
perfect list is of qualifications, because whoever it is will 
come with their own experience and then they will build their 
staff around them, in some ways based on what their experience 
is not because you want good, smart people around you that 
cover you where you are weak. So, of course, you want someone--
look, as I mentioned earlier, I thought it was a great asset to 
me to have worked at a local level. There aren't a lot of 
people, as has been pointed out by my other panel members, in 
senior levels of the Federal Government who have had local 
experience. But, boy, it served me very well, in terms of 
understanding the issues and particularly implementation at the 
field level.
    I will also tell you I was fortunate to have had a legal 
background. I would encourage Ken to make an observation about 
that. My law enforcement and legal background and time in the 
Justice Department was tremendously useful. All of the 
interagency experience that you bring to it is very important 
because you are trying to resolve what essentially amount to 
either policy disputes or turf battles. So I think all of those 
things in some measure or another--and your intelligence 
background--are all incredibly important.
    I share your view about the Homeland Security Advisory 
Committee. I think we have got to be careful about how much we 
expect of it because it is not, as you know, a daily body, 
daily involved, but I think that the secretary in particular 
needs that sort of advice and outside counsel and on a 
nonpartisan basis. As you pointed out, there are people from 
both parties who served incredibly well, put in a lot of time 
there, and I think it would be a mistake to do without it.
    One observation on organization that hasn't really been 
discussed but I think, based on conversations I have had with 
John Brennan and the team doing the review, is just worth 
noting: One of the ways, if you were going to merge the two 
councils, you might consider is to have a deputy who 
traditionally looks regionally and by country, that is the 
principal deputy job--Steve Hadley occupied it before he was 
the national security adviser--and to have a second deputy who 
looks at issues functionally--counterterrorism, homeland 
security--and has more of the functional issues--counter-
proliferation--that I had when I was at the White House.
    It is a way, if you were going to merge them, you could 
have two deputies, two of equal rank, that is assistant to the 
President, so that they would have the gravitas to be able to 
call necessary meetings, Cabinet members, and have direct 
access to the President. So there is a model by which you could 
do this, I think, and have the access and have the rank, if you 
chose to do it that way.
    I think that is one of the things they are considering. 
That is why I came back to what I said about, look, let us not 
worry about boxes, let us worry about effectiveness. I do 
think, in fairness to the team that is doing the review, that 
that is their mindset, that they want to come up with the right 
answer and the question is just how to get there.
    Chairman Thompson. Thank you very much. The gentlelady's 
time is expired.
    The gentlelady from Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I think 
this is an important discussion and, as well, hopefully at the 
end of the 60 days of the study that the President has 
authorized that we will have the right answer, and I think that 
is certainly a challenge.
    Ms. Townsend, I am interested in your theory about making 
sure that any merger still keeps direct access to the 
President. I am hoping in 60 days we will glean, from that, 
that that will occur. I am not yet committed to a merger. I 
think that collaboration is truly key, but there is a directive 
from the White House and likely we may have that.
    What would be, if a merger were to take place--and you have 
said it in your testimony, but just if you can distinctly say 
two factors that need to be in place for a successful merger. 
Would one be access to the President, direct access?
    Ms. Townsend. Yes, ma'am, and the reason for that is, as 
was my experience, you will have a threat and it will be 
breaking very quickly, and the President will need to 
prioritize actions and it really, ma'am, does not lend itself 
to having first to find the national security advisory, then to 
find the chief of staff, then to get to the President.
    Gratefully, these things don't come up all that often, but 
when they come up, it needs to be an absolutely crystal clear--
because there is a process by which you get to the President. 
If he is in the residence or you make a phone call, there are 
people whose job it is to check whether or not you have direct 
access, and there is a list.
    Unless you have direct access, you have got to get a by-
your-leave permission from somebody else to get through. I 
didn't have to use it often, but it was incredibly important 
when I had to use it.
    Ms. Jackson Lee. I am going to weave in and out of 
terrorism and disaster, so obviously I looked at your tenure 
and you are quite well known, 2004 to 2007. Help me understand 
the disconnect in the notification regarding Hurricane Katrina. 
You were there, direct access to the President. What went 
wrong?
    Ms. Townsend. Well, in fact, for one thing, there was a 
whole myriad of factors that contributed to that, but at the 
time of the incident, while the Homeland Security Council was 
supporting and getting information from the Department of 
Homeland Security, it was in fact the Domestic Policy Council 
that had been tagged with responsibility for briefing in the 
White House.
    In fact at the time, the domestic policy adviser, Claude 
Allen, was the person who went into the briefing room and 
briefed the press initially. We were supporting him. So I can't 
tell you exactly how that works. We----
    Ms. Jackson Lee. So your name was homeland security but it 
didn't connect to the Domestic Council because that was left to 
them. It didn't connect that you were homeland security, which 
is securing in the wake of terrorism but also FEMA is under 
homeland security, but you were distinguished from what the 
responsibilities of the Domestic Council, which would have 
addressed the question of a tragedy or a natural disaster in 
the United States. Is that what you are saying?
    Ms. Townsend. We did interact with DHS; we did interact 
with FEMA. But there were lots of equities going on in the 
midst of that crisis. One person had to be designated. At the 
time, the chief of staff had designated the Domestic Policy 
Council, so there was a single place to feed things in. It was, 
in the early going of that, the Domestic Policy Council.
    Ms. Jackson Lee. Okay, so then I see a fracture right 
there, which is seemingly that was a conspicuously wrong place 
to put it because I think security equates to urgency.
    Ms. Townsend. Yes, ma'am.
    Ms. Jackson Lee. Not a study, not a review, not a quiet 
report, and I am not suggesting that maybe that was the style 
of Mr. Allen, but the point is that was obviously a fractured 
response, and we needed urgent response. So I am not sure if 
the President's review is going to include that as well.
    Let me just ask, quickly, if all of you all would comment--
say something is occurring in Pakistan, which it has occurred. 
Tell me how you would see that being reported as it relates to 
homeland security?
    Ms. Townsend. When I----
    Ms. Jackson Lee. If all the persons can answer please. As 
my time has expired, I yield as my last question, thank you.
    Go ahead.
    Ms. Townsend. In my time there, if it was a threat 
emanating that involved the United--first of all, the first 
thing that would have happened was Steve Hadley and I would 
have discussed how are we going integrate the information and 
how are we going to brief the President? We typically briefed 
him together because we had both foreign policy implications to 
that--if there was an incident, it would have impacted 
Afghanistan; it would have DOD implications. Steve would be 
pulling that together, the national security adviser.
    I would be looking at how that threat related outside the 
region, outside of Pakistan, whether it was the United Kingdom 
and that we were talking to intelligence services around the 
world. We had the appropriate domestic law enforcement response 
and so--and DHS--and so I would be bringing that piece.
    Steve Hadley would be bringing the military and foreign 
policy piece. Then we would be responsible for integrating that 
into a single, comprehensive brief to the President.
    Mr. Wainstein. Just to add to that, Congresswoman, keep in 
mind that structurally the directorate for combating terrorism 
over at the White House co-reported to both the national 
security adviser and the homeland security adviser, so anything 
having to do with terrorism would co-report, and that 
information would get sent to me and to Hadley or to Fran and 
to Hadley, because obviously there are homeland dimensions as 
well as international military intelligence dimensions to any 
terrorism incident throughout the world.
    Mr. Palin. Congresswoman, the Massoud threat that came 
about is, I think, a good example of where clearly there is an 
international dimension that the National Security Council 
would be focusing on, but there is also a domestic dimension 
that the Homeland Security Council should be focused on in a 
strategic way, rather than an operational or tactical manner. 
The Department should certainly be pulsing the whole system 
operationally and tactically on the kind of reports that need 
to go out.
    But the kind of threat that we have from Massoud or others, 
the homeland security adviser, Homeland Security Council, 
should be looking at that from a policy-strategy point of view 
and using that as, frankly, an opportunity to advance the 
conversation with State and locals about the implications of 
that kind of event strategically for the State and locals.
    Mr. Frazier. Congresswoman, the information would get out 
earlier if the--I am sorry, if the information--take the London 
train bombings, for example. As early as we knew about those, 
and we were fortunate that a number of the largest of our city 
chiefs were in one place at one time, once they became aware, 
and this is in the middle of the night and the largest cities 
with the subway systems had an immediate decision to make about 
deployment and counter measures. Those things would happen in 
real time down through that intelligence channel.
    Ms. Jackson Lee. Okay.
    Mr. Hoffman. Well, it obviously has to be seamless, I 
think, because the Mumbai attack showed, I think, it is just as 
easy to get on a boat in Karachi and sail to the Port of 
Angeles or the Port of Baltimore, any other port in the United 
States, as it is to sail to Mumbai.
    Ms. Jackson Lee. I just want to make sure--let me just 
conclude and yield back. I think what I am gleaning from the 
testimony is quick response, direct response, disseminating 
information should be our key--and particularly disseminating 
intelligence should be our key.
    Ms. Townsend, I clearly think there was a breach on 
Katrina. I think that was the wrong determination to put it on 
the domestic side because whenever you are in dishevel and 
upheaval, it is as much vulnerable to Hurricane Katrina as it 
might be to attacks on our oil processes in the Gulf. It might 
be the time to come and do so, so I think it is homeland 
security.
    I understand the chiefs were saying that you all happen--
the idea is to have a structure to get the information to you 
as quickly as possible if it has a relevance to your security 
of your area.
    Mr. Frazier. Yes, ma'am----
    Ms. Jackson Lee. All right.
    Mr. Frazier [continuing]. That is correct.
    Ms. Jackson Lee. Mr. Chair, I yield back, and I think we do 
have some work before us in terms of ensuring that this system 
works and works well. I yield back.
    Ms. Carney [presiding]. Thank you.
    Ms. Townsend, I know you--I will dismiss you in a moment. 
But I do have a quick question, and this is for after--you can 
answer first and then, you know, take your leave, thank you.
    You know, you and I have worked together for quite a while. 
What would you do differently now?
    Ms. Townsend. I actually think that there needs to be--I 
would change the personnel structure to more closely match the 
NSC, where they are entitled separately. It doesn't all have 
under the same White House rules; it gives them greater 
flexibility in terms of who they recruit, how they get 
detailees.
    So, if I was going to change it, I would actually change it 
to more closely mirror the NSC system. I would give it more 
resources. I think, you know, the--Ken and I were talking 
during the break. I don't think I ever got it to one quarter 
the size at its largest of the NSC. That is a problem.
    The kind of input and expertise I needed was very 
different. I needed a lot of technical expertise. I had doctors 
on my staff to help me with--think through bio issues and the 
pandemic planning issues. So I just--I had a greater need for 
real technical expertise on my staff, and I had a--and I didn't 
have enough.
    So it was a combination. I need more and I need real 
particular expertise. You need the flexibility to get that and 
then do an issue and send people back. I didn't have the sort 
of personnel and budget flexibility that I found they really 
did have more of on the national security----
    Ms. Carney. Did you share that with the President's review 
team or did you even talk to the President's review team?
    Ms. Townsend. I did. I was----
    Ms. Carney. Okay, good.
    Ms. Townsend. I was interviewed and they asked me to share 
my observations.
    Ms. Carney. Great, yes.
    Ms. Townsend. I was very candid.
    Ms. Carney. Excellent, thank you. We appreciate your 
testimony today. Thanks so much, it is good to see you again.
    Gentlemen, please jump in here, first on, you know, what we 
ought to do differently than the last administration. Do you 
agree with Ms. Townsend's assessment that we need to make it 
larger? By the way, did all of you talk to the President's 
review team?
    Good, very good, great.
    Mr. Wainstein.
    Mr. Wainstein. Okay, thank you, sir, I will go ahead and 
start. I will essentially repeat what Fran said, in terms of 
personnel and resources. You know, that is the mantra you hear 
from every good bureaucrat: We need more resources.
    But I did get the feeling that there were--I always felt 
like there were matters of great importance that I really 
wanted to have someone dig into more deeply, have someone with 
more expertise on them so that we could push them forward. We 
just didn't have the personnel. It is not as though I asked for 
more personnel and got rebuffed; it is just that that is sort 
of the way it was designed initially.
    I think this is a good opportunity to step back a minute 
and think maybe it should be designed differently. Maybe the 
personnel authorization should be done differently so we can 
expand it more easily. But I think it is important to keep in 
mind where we are and for the homeland security mission, which 
is we are still building in a way that we are not necessarily 
building on the national security side.
    All these efforts, whether it is from pandemic planning to 
continuity planning to port security, this is stuff that is not 
going to be sort of front burner, but it is going to be a 
constant need. We need people who are not--you can't just throw 
in to deal with an issue as it bubbles up but who are 
constantly minding that issue and then checking back in and 
saying here is where we are on port security and the like.
    So I am with Fran, and I have passed this on to the folks 
who are doing the review at the White House, that, yes, maybe 
we don't need the same numbers as the National Security Council 
currently has, but we do need more people with greater 
expertise in more areas.
    Ms. Carney. Great, thank you.
    Mr. Palin.
    Mr. Palin. Certainly more, but I would differ potentially 
from my two colleagues in this way. It is no longer a start-up. 
A lot of the work that you see prior to now was a major effort 
to simply get the beast started. I think you can especially see 
that in the way the HSPDs were often taken on by the Homeland 
Security Council--very important work, very detailed work, work 
that, in at least my judgment, should have been done probably 
by the Department but couldn't be done by the Department, so 
the Homeland Security Council was doing it.
    I think, as we move forward, having more people that are 
focused on the homeland security mission that have background 
in the full continuum of risk--counterterrorism and natural 
hazard--but also developing a discipline that the Homeland 
Security Council staff is focused on strategy policy, and 
operational, tactical management issues are the domain of the 
Department.
    Ms. Carney. Thank you.
    Mr. Frazier.
    Mr. Frazier. I think two things. One is representation from 
State and local practitioners on running a big city law 
enforcement agency or fire-medical service is a profession in 
and of itself. It brings a different perspective than an 
intelligence community professional or military professional.
    I don't think that the perspective has been present in the 
decision-making levels of those areas that--frankly, who you 
are going to have to deal with in a domestic situation. This is 
not overseas stuff. And flexibility--these issues come and go 
so quickly; a budget flexibility to bring subject matter 
experts in is important.
    Ms. Carney. To bring them in rather than have them on 
staff?
    Mr. Frazier. You know, there are so many possibilities that 
I think you need to have a core, but there are always going to 
be things that are going to take a specialist, and I think you 
need the ability to bring them when you need them.
    Ms. Carney. Thank you.
    Professor Hoffman.
    Mr. Hoffman. I think much of what we have heard from my 
fellow panelists, at least in my recollection, was part of the 
vision in the HSC when it was first established. I think that 
is one of the problems is that it has been an unrealized 
vision. In fact, if it had been as large and as robust, if it 
had had the State and local representation that was originally 
planned, we wouldn't be having this discussion actually. It 
would be far more difficult to fold it into the NSC.
    The fact that it has been something of a Cinderella is 
exactly the problem. So it either has to be plussed up and 
strengthened or a new organization is found that still gives it 
all these capabilities within the NSC rubric.
    Ms. Carney. Thank you.
    My time is over-expired.
    The Chair now recognizes the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    This is kind of a general question to all of you. In my 
real life, I am a Methodist minister, and I have been through 
two church mergers.
    [Laughter.]
    Mr. Cleaver. The only thing that could be worse would be--I 
don't know what could be worse. So I do have some experience in 
mergers, where emotions run high.
    My great fear when we talk about these departments merging 
is that there will always be a department with a dominant 
culture. You know, and so people will go in with war on their 
minds because the dominant culture consciously or unconsciously 
will try to impose that culture on the other. The chances are 
homeland security will be the weaker culture, just by virtue of 
its short existence. Am I analyzing this incorrectly? Is the 
church a poor analogy?
    Mr. Wainstein. I will take that one on initially, sir. You 
are right. Any time there is a merge, same thing, you know, 
whether it is a church or with government components, it can be 
difficult. I actually, in my introductory remarks, talked about 
a couple I have been involved in. It is tough. You have got the 
human factor you have got to deal with.
    I think in this case, that is going to be mitigated by 
several things. For one thing--at least the possibility of 
friction at the front end--one thing is, you know, they are 
starting with a clean slate. There is a new administration. 
They are walking in there with primarily new people, at least 
in the homeland security area--obviously new homeland security 
adviser and the like. So it is not as though you are going to 
have to merge two long-standing bodies together with their own 
cultures, et cetera. That is one thing.
    Secondly, the President has made its clear he is firmly 
behind this effort to do this review, and that makes a big 
difference. People might have concerns about it, but the 
President is the one who has dictated it and ordered it, and 
that makes a huge difference.
    Mr. Cleaver. Kind of like a bishop in a church--yes.
    Mr. Wainstein. Yes, yes, I think so. You know, so you know 
that it is coming from on high. The last thing to mention is 
the process of this review that they are doing right now. I am 
confident that at the end of the day, whoever disagrees with 
the recommendation and the President's decision will at least 
not be able to challenge the validity of the process because 
the folks that I have been working with over there are being 
very inclusive, are talking to everybody from all perspectives, 
all sort of interest groups who might have an interest in this.
    So at the end of the day, no one is going to be able to 
say, ``Hey, you know, our interest in this got short shrift,'' 
because they all will have had some input in the process. That 
will go a long way to ensuring its credibility.
    Mr. Cleaver. Mr. Palin.
    Mr. Palin. If it was just the merger of two churches, I 
would agree with everything that was just said. I think a 
better analogy is the merger of a United Methodist seminary 
with a Free Methodist seminary.
    Mr. Cleaver. Won't work.
    Mr. Palin. Yes, sir, and the reason, for those that might 
not be aware of Wesleyan theology, is that the theory, the 
concepts, the practice of national security are very well 
developed. Those dogmas and doctrines have a robustness that we 
do not yet have in homeland security. There needs to be a 
period of time to allow that new discipline to develop. I am 
afraid that giving over the care of homeland security to the 
big brother, national security, will stifle that potential.
    Mr. Cleaver. You hit on something, Mr. Wainstein. What 
happens to the national continuity coordinator, which has been 
also Presidentially mandated? I mean, what happens there? Who 
does the coordination?
    Mr. Wainstein. That is one of the myriad functions of the 
Homeland Security Council, the homeland security adviser, that 
will then have to be sort of allocated if that person and that 
council gets merged with the NSC. I don't know. I assume it 
would be the homeland security adviser or whatever that 
person's title is. The person who has the homeland security 
responsibilities in this new entity would retain that because 
that is very much a homeland security----
    Mr. Cleaver. Yes, but of all the Federal agencies, do you 
think that we can chance inside squabbling that could impede 
the efficiency of homeland security or national security? I 
mean, you know, if it were, you know, HUD and Commerce, we 
could probably, you know, work it out and nobody is going to 
get hurt, you know, but we are talking about national security 
and homeland security, and if there is any chance that the 
infighting, which I know for a fact exists even without a 
merger in the Federal Government--is it worth the risk?
    Mr. Green [presiding]. We will hear the answer, after which 
my friend's time will have expired.
    Mr. Wainstein. Sir, I think that is a very good--very good 
point, very good question. My point is, sort of aside from 
looking at the substantive question as to whether homeland 
security should be separate from national security, in terms of 
the prospect of friction, I think there is that prospect. For 
the reasons I cited, I think that that prospect is somewhat 
diminished here.
    I think advocates of merger would say that is more than--
the concern about that is more than counterbalanced by the in-
fighting that already exists because of the fact that you have 
two separate councils operating in the same space. I actually 
don't believe that in-fighting is all that great. I never saw 
it; I never felt it.
    But, obviously, whenever you have two different groups or 
two different sets of people working in the same area, there is 
a possibility of lack of coordination. So advocates would say, 
even if there might be some growing pains after the initial 
merger, they are not going to be so much that it outweighs the 
benefit of getting rid of this, you know, the jockeying and the 
rivalry between the two different councils.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Green. Thank you.
    The gentleman's time has expired. I believe I am next, but 
I will yield to Mr. Massa.
    Mr. Massa, you are recognized for 5 minutes.
    Mr. Massa. Thank you, Mr. Chairman, and thank you 
distinguished panel members. I am a freshman Member of 
Congress, and so I come at this with some level of having to do 
evening preparation and studying these questions before us.
    As I was doing this last night, it occurred to me that 
first I applaud the administration for conducting this review. 
It seems very timely and it seems very appropriate. I believe, 
however, that I have arrived at a conclusion that it would be 
counterproductive to the missions of both councils to merge in 
a way that would not understand their distinct identities. I 
believe that there are some fundamental conflicts about 
ensuring homeland security under civilian authority and 
national security that directs a much more robust involvement 
of the uniformed military services at all, things like posse 
comitatus, et cetera, that goes back to the very nature of why 
we have a separate United States Coast Guard with its origins 
in the revenue cutters.
    So, Professor Hoffman, I would like, if I could, 
understanding your background, to hear your thoughts on that if 
I might.
    Mr. Hoffman. Well, I think--I mean, you have hit the nail 
on the head as you are talking about two different cultures and 
two different orientations and missions but also in many 
respects two different sets of stakeholders as well. The 
national security structure, which has been--outward-looking, 
that hasn't had to deal with many of the domestic issues, even 
when there has been overlap with terrorism. It still, I think, 
it has a very different orientation.
    So I think that what suggests is that--well, first, I have 
trouble using the word merger, but maybe I am alone in that. It 
doesn't seem like a merger to me. I mean, merger to me implies 
something of parity.
    Mr. Massa. Could it be a----
    Mr. Hoffman [continuing]. Parity----
    Mr. Massa. Could it be a hostile takeover?
    Mr. Hoffman. Well, absorption or folding in, I think, was 
the diplomatic phrase that I used. But I think you have 
identified one of the key concerns, which underlies all of 
this, is the fundamental one of civil liberties and about 
Government that is able to keep us safe and secure while still 
being mindful of the fundamental rights and freedoms that 
United States citizens enjoy.
    I think, you know, I don't have an answer to your question 
about how we facilitate it, but I think your concern, though, 
is well-founded, because you are talking about an agency that 
hasn't had to pay attention to these things to the extent of 
some of the challenges we see with the Department of Homeland 
Security, for example, and even some of the challenges we see 
with fusion centers who have to deal not just with the 
mechanics of intelligence sharing but not least with 
successfully doing all that without being seen. No one has the 
intention, I think, to violate civil liberties. It is often the 
perception, and that perception can undo a lot of good work.
    Mr. Massa. Thank you, Professor.
    I would like one last specific question, a quick follow-up, 
Mr. Chairman, if I might.
    I sit on the maritime security subcommittee of this full 
body. There are many, many issues before us. But as we talk 
about hostile takeovers and mergers and acquisitions in this 
environment, it occurs to me that perhaps now is a time to ask 
a question about the closer coordination between the United 
States Naval Service and the United States Coast Guard, which 
has always been very separate. But even today, if we are going 
to review at the top-most levels, should we be discussing the 
correct placement for the maritime security forces as a body?
    Mr. Palin, I would like to hear from you on that. I am 
sorry--I am sorry to toss the hand grenade at you, I know.
    Mr. Palin. I would be inclined to see a continuation of the 
sea services from the Coast Guard, for many of the same 
principled reasons that I think Homeland Security Council 
should remain largely separate from the National Security 
Council. There is an amazing Coast Guard culture. Inside the 
Government, it is a command-and-control culture; it is a 
military culture. But they have developed an ability to work 
with State and locals that is much more similar to the way that 
cops on the beat behave than any naval officer I have ever had 
the privilege of working with.
    The sea services, both the Marines and the naval services, 
have a very important outward-looking role to play. I think the 
Coast Guard, while they are sometimes tempted--you know, they 
would like to go overseas a little bit more for their own 
reasons, but their real mission is here at home in our home 
waters, even in Fargo last week. We want to preserve, protect, 
and advance that very special culture that we have in the Coast 
Guard, not lose it inside the much bigger, broader, powerful 
naval services.
    Mr. Massa. Well, thank you for that, and I tend to agree 
with you, having spent 24 years in the Navy and having 
developed an incredible respect for the Coast Guard, who, 
frankly, often did much more than I was able to do on one-tenth 
the budget. So they have certainly earned the admiration of all 
my fellow naval officers, and I appreciate your insight into 
that and actually concur with you.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Thompson [presiding]. Thank you very much. I don't 
think you will find any disagreement with your statement. We 
have found that, personally, during Katrina and some other 
emergencies, how the Coast Guard really serves this country and 
its citizens well.
    Let me thank the witnesses for their testimony and their 
patience in staying around while the votes were being taken. 
Let me assure you, you were invited because of your 
contribution. You were not invited because you are all singing 
off the same page. We got exactly what we were looking for in 
your testimony, and it will ultimately, we think, go toward 
some solution to exactly what we will do, based on that 
testimony.
    Again, I do thank you for your--the witnesses.
    I will yield to the gentleman.
    Mr. Green. I am okay.
    Chairman Thompson. You all right? I mean, we got a little 
time--okay.
    Everybody--we are getting out tonight, so everybody is 
feeling good.
    [Laughter.]
    Chairman Thompson. Again, I thank the witnesses for their 
valuable testimony and the Members for their questions. The 
Members of the committee may have additional questions for you, 
and we will ask you to respond expeditiously in writing to 
those questions. Hearing no further business, the committee 
stands adjourned.
    [Whereupon, at 12:54 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson of Mississippi for Kenneth 
L. Wainstein, Former Homeland Security and Counterterrorism Advisor to 
                             the President
    Question 1. The 9/11 Commission Report attributed the terrorist 
attacks, in part, to the failure of the intelligence and law 
enforcement communities to share information, regardless of its foreign 
or domestic origin: Do you believe that the integration of the National 
Security Council with the Homeland Security Council or their staffs 
would break down the barriers to the sharing of intelligence 
information across the Federal Government? How do you think it would 
impact information sharing with State, local, and Tribal partners--our 
``first preventers''?
    Answer. While I agree that the integration of the HSC and the NSC 
and their staffs has the potential to improve information sharing to 
some extent, I say that with a couple of caveats. First, to the extent 
that your question asks whether the separation of the HSC and the NSC 
serves to maintain the domestic/foreign divide that underlay some of 
the pre-9/11 information-sharing problems, I'm not sure that is the 
case in practice. In fact, it can be argued that by merging the 
homeland security and counterterrorism responsibilities in the person 
of the Assistant to the President for Homeland Security and 
Counterterrorism (the Homeland Security Advisor), the current structure 
actually helps to ensure integration of domestic and foreign 
counterterrorism-related information. Second, while integration of the 
two councils and staffs may enhance sharing of information (especially 
between the Federal intelligence establishment that works primarily 
with the NSC and the State and local partners who work primarily 
through the HSC), that will happen only if stovepipes are avoided 
within the resulting new structure. Simply putting everyone under one 
umbrella will not ensure information sharing, as structural divisions 
will necessarily be built within that new entity--divisions that could 
impede information sharing in the absence of procedures and systems for 
regular coordination and sharing. It is my understanding that the 
administration is attuned to the need for such coordination and sharing 
procedures, regardless of the structure it ultimately adopts.
    Question 2. As we think about enhancing State and local 
participation in security policymaking, what is your view of the 
possibility of moving away from an ``advisory-only'' posture to more 
``direct involvement'' in the approval of homeland security policies? 
Consider the prospect of creating a new hybrid committee, composed of 
State Homeland Security Advisors, to meet regularly to discuss current 
homeland security issues early in the policy development process and 
transmit to the White House their approval or disapproval. Do you 
believe that such a formulation, giving State and local authorities not 
only an advisory role but the power to veto pending homeland security 
policy would prove beneficial to homeland security policy making?
    Answer. I agree that the administration and Congress should 
consider different means of giving State and local authorities more 
regular and meaningful input into the homeland security policymaking 
process. I concur, for example, with the idea of creating detail 
positions on the HSC staff for some number of appropriate State and 
local officials. Like that provided by the current and past staff 
members who have State and local experience, their input in the process 
and advice to the Homeland Security Advisor would be invaluable.
    While the idea of a committee of State Homeland Security Advisors 
is appealing, one would have to consider its role vis-a-vis that of the 
HSAC. Also, as for vesting that committee with the power to veto 
pending policy, I foresee that raising serious practical and 
potentially constitutional issues.
    Question 3a. Some proponents of a Homeland Security/National 
Security Council merger--including James Carafano from the Heritage 
Foundation--have argued that a merger will help ensure that national 
security is approached ``holistically.''\1\ Philip Zelikow--the former 
executive director of the 9/11 commission--has asserted that the main 
reason the HSC has yet to be merged with the NSC was the need to wait 
``for DHS leadership to gain enough skill so that such a large White 
House policy development crutch would not be needed any longer.''\2\
---------------------------------------------------------------------------
    \1\ James Carafano, a fellow with the Heritage Foundation, said 
that ``having two separate councils made sense six years ago when the 
department was brand new, but now it's time to think about national 
security issues more holistically,'' CBS 5 News Online, ``Obama Plans 
to Overhaul Counterterrorism Apparatus'' January 8, 2009.
    \2\ Laura Rozen, ``More Reviews: Merging the Homeland Security and 
National Security Councils'' Foreign Policy Magazine, March 6, 2009. 
http://thecable.foreignpolicy.com/posts/2009/03/06/
more_reviews_merging_the_homeland_security_and_national_security_council
s.
---------------------------------------------------------------------------
    Do you agree structural changes to the Councils would advance the 
achievement of a ``holistic national security policy''?
    Question 3b. Do you agree that the Homeland Security Council has 
served as a ``crutch'' for DHS?
    Answer. I agree with the objective of harmonizing policy across the 
national security spectrum. As I said in response to question 1 
(above), however, the creation of a single council will not 
automatically create a ``holistic'' policy process unless we build the 
processes that force coordination across the divisions that will 
inevitably develop within that council.
    As for the ``crutch'' argument, I addressed that issue when I made 
the following point in my testimony on April 2, 2009:

``It was my experience that DHS benefited from having an inter-agency 
council and staff that were dedicated to its core mission. The 
existence of the HSC in the White House reinforced the priority placed 
on the Department's success, helped DHS work through difficult 
interdisciplinary issues with other agencies and departments, and kept 
its issues and concerns on the President's agenda. While that support 
was necessary in the Department's earlier years, it is conceivably less 
important now that DHS is more established.''

    Question 4a. After the Homeland Security Council was established, 
then-President Bush announced the creation of the Homeland Security 
Advisory Council (HSAC). Bush intended this advisory council to give a 
voice to State, local, and Tribal authorities in making recommendations 
for homeland security policymaking. However, critics argue the HSAC 
does not have any teeth or the capacity to ensure that its 
recommendations are carefully reviewed or implemented by senior White 
House policymakers.
    From your time at the White House, what were the strengths and 
weaknesses of how the HSAC collaborated with State and local 
authorities?
    Question 4b. Similarly, what, if any role, did State and local 
authorities have in policy development for the National Security 
Council?
    Question 4c. Regardless of what emerges from the White House study, 
should the HSAC continue to function? If so, are there any changes that 
you think should be undertaken to ensure State, local, and Tribal 
authorities were more readily represented?
    Answer. You are right to consider how the HSAC can have a more 
regular and meaningful role in the policymaking process. In the last 
administration, it was decided that the HSAC should be empanelled by 
and report to the Secretary of Homeland Security--a decision that is in 
keeping with the Secretary's coordination role under HSPD-5. While 
based on sound reasoning, that decision makes it incumbent on DHS and 
the Secretary to engage regularly with the HSAC and to empower it to 
play a major role in homeland security policymaking. To ensure that the 
HSAC's views get factored into the policymaking process, it is 
essential that the Secretary and DHS officials act as a conduit between 
the HSAC and the inter-agency process.
Questions From Chairman Bennie G. Thompson for Frances Fragos Townsend, 
 Former Homeland Security and Counterterrorism Advisor to the President
    Question 1. The 9/11 Commission Report attributed the terrorist 
attacks, in part, to the failure of the intelligence and law 
enforcement communities to share information, regardless of its foreign 
or domestic origin: Do you believe that the integration of the National 
Security Council with the Homeland Security Council or their staffs 
would break down the barriers to the sharing of intelligence 
information across the Federal Government? How do you think it would 
impact information sharing with State, local, and Tribal partners--our 
``first preventers''?
    Answer. At the Federal level, effective information sharing, 
whether horizontal or vertical, is more dependent on the attention it 
receives from the President and his leadership team than which office 
is coordinating policy. Information sharing must be a priority at the 
highest levels, and that must be unequivocally reinforced down the 
chain. Unless it is ingrained in the culture of any administration, 
information sharing efforts will fall short--no matter which office has 
policy responsibility.
    To be sure, the HSC has helped to establish and implement policies 
to mandate and facilitate responsible information sharing. While there 
is always room for improvement, those policies, to date, have proved 
effective, and they are still in place and carried out by the relevant 
Departments. If the NSC and HSC are integrated, I trust that, so long 
as homeland security issues are adequately represented, the NSC will 
continue to monitor information sharing issues and mediate interagency 
disputes in that area.
    As to our State, local, and Tribal partners, interaction with the 
Federal Government, I believe that DHS and the FBI are best equipped to 
disseminate, collect, analyze, and synthesize that information. Once 
again, there are now mechanisms (e.g., JTTFs, fusion centers, etc.) and 
policies in place to ensure that this is done effectively. As long as 
those mechanisms are supported and those policies followed, then we 
should continue to see improvements in so-called vertical information 
sharing. That said, it remains important that local officials have 
access to the White House policy process to raise issues of concern. If 
there is an integration of the HSC into the NSC the White House will 
have to work to ensure the continued ability of State and local 
officials to appropriately influence the policy process.
    Question 2. As we think about enhancing State and local 
participation in security policymaking, what is your view of the 
possibility of moving away from an ``advisory-only'' posture to more 
``direct involvement'' in the approval of homeland security policies? 
Consider the prospect of creating a new hybrid committee, composed of 
State Homeland Security Advisors, to meet regularly to discuss current 
homeland security issues early in the policy development process and 
transmit to the White House their approval or disapproval. Do you 
believe that such a formulation, giving State and local authorities not 
only an advisory role but the power to veto pending homeland security 
policy would prove beneficial to homeland security policy making?
    Answer. The importance of State and local participation in security 
policymaking cannot be overstated. With that said, it is ultimately the 
President's responsibility to protect the country from terrorist 
attacks, and he should have the ability to establish administrative 
policies to that end. Therefore, while I would continue to encourage 
and underscore the need for State and local involvement, I would not 
recommend that State and locals be given a veto over administration 
policy. However, I do support direct participation of State and local 
officials in the policymaking process.
    Question 3a. Some proponents of a Homeland Security/National 
Security Council merger--including James Carafano from the Heritage 
Foundation--have argued that a merger will help ensure that national 
security is approached ``holistically.'' Philip Zelikow--the former 
executive director of the 9/11 commission--has asserted that the main 
reason the HSC has yet to be merged with the NSC was the need to wait 
``for DHS leadership to gain enough skill so that such a large White 
House policy development crutch would not be needed any longer.''
    Do you agree structural changes to the Councils would advance the 
achievement of a ``holistic national security policy''?
    Answer. I tend to focus less on organizational boxes--whether they 
are being created, eliminated, or folded--and more on the mission. Call 
it ``holistic'' or whatever you want, but what matters most is that 
effective policies and mechanisms are in place to reduce the risk of 
another terrorist attack. Regardless of the organizational structure, 
there needs to be adequate resources devoted to these issues and the 
person on the White House staff with the responsibility needs to have 
direct access to the President to advise him on these issues.
    Question 3b. Do you agree that the Homeland Security Council has 
served as a ``crutch'' for DHS?
    Answer. I agree that the HSC has served as an effective and 
important partner with all of the agencies with which it has worked, 
including DHS.
    Question 4a. After the Homeland Security Council was established, 
then-President Bush announced the creation of the Homeland Security 
Advisory Council (HSAC). Bush intended this advisory council to give a 
voice to State, local, and Tribal authorities in making recommendations 
for homeland security policymaking. However, critics argue the HSAC 
does not have any teeth or the capacity to ensure that its 
recommendations are carefully reviewed or implemented by senior White 
House policymakers.
    From your time at the White House, what were the strengths and 
weaknesses of how the HSAC collaborated with State and local 
authorities?
    Answer. I believe that the HSAC's greatest weakness was its initial 
project-oriented focus. The HSAC would work for several months with 
State and locals to produce a substantively useful work product. The 
problem was that, for most security policies, the administration had to 
move fast. Consequently, policies would be established and implemented 
far in advance of receiving all of the input from the HSAC. To be 
clear, I do not blame anyone for that. It was just part of the learning 
process of a new Department.
    Secretary Chertoff turned that lesson learned into what I think now 
is the HSAC's greatest strength: Its ability to impact decision-making. 
HSAC members now more routinely consult with the Secretary of Homeland 
Security and provide timely advice on important security issues, 
including those directly implicating State and locals.
    Question 4b. Similarly, what, if any role, did State and local 
authorities have in policy development for the Homeland Security 
Council?
    Answer. State and local authorities played an active role in policy 
development for the HSC. That role took on many forms. I was in 
frequent personal contact with State and local officials on security 
issues. Moreover, my staff consulted and routinely coordinated with 
State and locals, and many times we attended State and local fora to 
consider and to debate security policy issues. Finally, because I had 
direct access to the President, I can attest personally that he was 
routinely made aware of State and local recommendations.
    Question 4c. Regardless of what emerges from the White House study, 
should the HSAC continue to function? If so, are there any changes that 
you think should be undertaken to ensure State, local, and Tribal 
authorities were more readily represented?
    Answer. Yes. The HSAC members' experience, wisdom, and intellect 
alone should ensure its viability. To best ensure that State, local, 
and Tribal authorities are meaningfully represented, I would encourage 
increased direct contact between the Secretary of DHS and HSAC members. 
In other words, instead of sliding back into the era where HSAC members 
met with the Secretary every 6 months to discuss written projects, 
continue to use HSAC as a sounding board for timely decision-making. 
And while I would not discourage regular in-person meetings between the 
Secretary and HSAC members, I would not make that the exclusive venue 
for discussion. In my experience, sometimes a quick conference call on 
an urgent issue is more helpful and productive.
Questions From Chairman Bennie G. Thompson of Mississippi for Philip J. 
  Palin, Senior Fellow, National Institute for Strategic Preparedness
    Question 1. The 9/11 Commission Report attributed the terrorist 
attacks, in part, to the failure of the intelligence and law 
enforcement communities to share information, regardless of its foreign 
or domestic origin: Do you believe that the integration of the National 
Security Council with the Homeland Security Council or their staffs 
would break down the barriers to the sharing of intelligence 
information across the Federal Government? How do you think it would 
impact information sharing with State, local, and Tribal partners--our 
``first preventers''?
    Answer. In my judgment integration of the NSC and the HSC, or the 
full integration of their respective staffs, could potentially 
contribute to breaking down barriers to sharing intelligence across the 
Federal Government. Such integration would, however, potentially 
undermine progress--and delay further progress--in sharing intelligence 
information between the Federal Government and its State, local, and 
Tribal partners. The culture of intelligence appropriate for National 
Security is in tension with the culture of intelligence most helpful to 
Homeland Security. In the National Security domain there is a real need 
for protecting covert sources and methods and not communicating to 
possible adversaries what is known. In the Homeland Security domain 
there is much greater value in sharing information more broadly and 
openly. In Homeland Security there is often an advantage to self-
consciously depend on open sources of intelligence and avoid covert 
operations in all but a few cases. The differences between National 
Security and Homeland Security are healthy differences. Fully 
integrating the HSC staff into the NSC staff would, I expect, 
discourage full development of the unique approach to intelligence 
gathering and analysis needed by Homeland Security.
    Question 2. As we think about enhancing State and local 
participation in security policymaking, what is your view of the 
possibility of moving away from an ``advisory-only'' posture to more 
``direct involvement'' in the approval of homeland security policies? 
Consider the prospect of creating a new hybrid committee, composed of 
State Homeland Security Advisors, to meet regularly to discuss current 
homeland security issues early in the policy development process and 
transmit to the White House their approval or disapproval. Do you 
believe that such a formulation, giving State and local authorities not 
only an advisory role but the power to veto pending homeland security 
policy would prove beneficial to homeland security policy making?
    Answer. In other settings I have recommended exploring means for 
more ``direct involvement'' of State and local personnel in Homeland 
Security policy making. One way to do this is implied in your question, 
and the proposed empanelling of a group of State and local leaders to 
be involved in the sausage making of Homeland Security policy. If this 
approach is taken I would recommend a process by which the member 
organizations of the Homeland Security Consortium are invited to 
nominate for the President's consideration a pool of personnel three 
times larger than the board or commission being formed. From this pool 
the President would name at least 70 percent of the panel. For the 
other 30 percent the President could appoint individuals not nominated 
through this process.
    The challenge here is securing sufficient and timely attention by 
State and local leaders--already fully engaged--to be proactive in the 
policy making process. I have worked closely with many of these 
individuals. They have the intellectual capability and experiential 
background to contribute a great deal. They are extremely time-
challenged.
    Another approach would be to develop a rigorous Homeland Security 
Fellowship program to attract State and local leadership--perhaps the 
next generation of leadership--into HSC staff roles for tenures of 
about 18 months. Working with the Governors, key Mayors, and the member 
organizations of the Homeland Security Consortium an annual competition 
could be conducted. I understand that in the last administration the 
HSC staff never exceeded 32. If there were a new class of 12 Fellows 
starting every 6 months, the level of State and local expertise 
available to the HSC would be substantial and the level of continuity 
would ensure that good work was being done. This approach would obviate 
the time-challenge noted above. But even a prestigious and reasonably 
compensated fellowship program will be difficult to fill. Proactive 
engagement with State and local leaders will be needed.
    Question 3. Do you know of any statutory or Executive prohibitions 
that prevent the National Security Council from consulting and 
coordinating with State, local, or private sector entities? If so, 
please describe them.
    Answer. I know of no such statutory or Executive prohibitions.
    Question 4. Putting aside the questions of Federalism, would it be 
appropriate to have representation from various levels of government 
such as State and local governments in homeland security policymaking?
    Answer. There is a practical necessity for various levels of 
government to be involved in homeland security policymaking. In most 
matters of prevention, protection, response, and recovery to natural, 
accidental, or intentional threats State and local resources are more 
substantial and more readily applied than those of the Federal 
Government. If State and local concerns and capabilities are not 
reflected in Federal policy, it is likely to be ineffective--and even 
counter-productive--policy. There is a national need to cultivate the 
active and enthusiastic support of State and local homeland security 
stakeholders. This is most likely to be achieved by involving State and 
local participants in the policy making process early and often.
    Your question implies that such collaboration might be contrary to 
the principles of Federalism. Depending on how such participation is 
structured, that is not my understanding of the Constitution. A crucial 
insight emerging from the Philadelphia convention was the potential for 
dual loyalties. We may be loyal citizens of our home States and of our 
Nation. It was especially Madison and his allies who established the 
Federal Republic as a creature of the people, at least as much as the 
States. The 14th and 17th Amendments have considerably advanced the 
direct tie of the people to the Federal Government.
    There would certainly be constitutional complications if we were 
contemplating the imposition of Federal officials in State offices. But 
instead we are inviting U.S. citizens--who happen to be officials of 
State and local agencies--to participate in the policymaking process of 
their National Government.
    Question 5a. It is often said that the problems this country 
continues to face in building an effective counterterrorism strategy 
centers on our ability to integrate all aspects of the Federal 
bureaucracy.
    Please describe your views on whether a merger of the two Councils 
or staff will help advance the promulgation and execution of policy in 
an integrated fashion.
    Answer. It is reasonable to expect that integration of the HSC 
staff with the NSC might contribute to better coordination of Federal 
plans, policies, and processes. This would, of course, not be 
automatic, but could be the outcome if supported with effective 
leadership and management. But I remain concerned that the efficiencies 
thereby produced would come at the expense of efficacy. The National 
Security domain has an intellectual coherence that the Homeland 
Security domain does not yet have. National Security frameworks and 
assumptions are often not conducive to effective Homeland Security 
practice. Integration is likely to obscure the differences between the 
domains, mostly to the disadvantage of Homeland Security.
    Question 5b. Aside from structural changes, what could be done to 
better ensure coordination of plans, policies, and processes?
    Answer. To better ensure coordination of plans, policies, and 
processes there is a particular need for the White House to assert 
effective strategic leadership without descending into operations and 
management. Over the last several administrations White House staff 
have increasingly intervened as managers rather than shapers of policy. 
This is an incredibly time-consuming task beyond the capacity (and 
perhaps the competence) of any conceivably sized White House staff. 
Moreover, this tendency serves to obscure and delay necessary reforms 
within the cabinet departments in regard to policy implementation, even 
while it distracts the White House staff from effectively conceiving, 
crafting, and communicating policy/strategy. While acknowledging the 
realities of political and practical urgency, there is a crucial need 
for the White House staff--and especially the Homeland Security Council 
staff--to step back from operations and implementation and focus 
intently on policy, strategy, and coordination. This strategic 
restraint would in the long-term--if carried out over the long-term--
make a very substantial contribution to improved coordination of plans, 
policies, and processes. Studies of operational effectiveness in both 
the public and private sector often find that poor coordination is the 
outcome of poorly understood strategy. The most effective way for the 
Homeland Security Council to improve coordination would be to expend 
more time and effort in crafting and communicating strategic goals and 
plans for achieving strategic goals.
    Question 6. While we all support enhancing State and local 
participation in homeland security policymaking, it is often difficult 
to determine who amongst the wide array of State and local officials 
would best represent these interests. Specifically, given the diversity 
of voices in Governors Mansions, State houses, and local police and 
fire houses, how would you recommend the White House identify the right 
officials to communicate the collective views of State and local 
authorities?
    Answer. In terms of identifying and effectively accessing 
representatives of the very diverse Homeland Security community, I 
recommend the Homeland Security Council staff give priority attention 
to three audiences:
    1. The Homeland Security Consortium.--This is a broad-based multi-
        disciplinary, public-private group that has demonstrated an 
        ability to effectively engage issues of policy and strategy, 
        especially where policy/strategy interfaces most directly with 
        practice.
    2. The Governors.--The State Governors, most often represented by 
        their Homeland Security advisors, are the constitutionally 
        appropriate and potentially most effective partners in 
        development of thoughtful and practical policies and 
        strategies. There are helpful existing mechanisms for engaging 
        these parties. Examining the very active way the White House 
        has engaged the Governors in regard to economic recovery 
        efforts exposes new possibilities.
    3. Congressional leadership and staff.--While this should go 
        without saying, I do not perceive that careful consultation 
        with the people's representatives has previously characterized 
        the development of White House Homeland Security policy and 
        strategy.
Questions From Chairman Bennie G. Thompson of Mississippi for Thomas C. 
      Frazier, Executive Director, Major Cities Chiefs Association
    Question 1. The 9/11 Commission Report attributed the terrorist 
attacks, in part, to the failure of the intelligence and law 
enforcement communities to share information, regardless of its foreign 
or domestic origin: Do you believe that the integration of the National 
Security Council with the Homeland Security Council or their staffs 
would break down the barriers to the sharing of intelligence 
information across the Federal Government? How do you think it would 
impact information sharing with State, local, and Tribal partners--our 
``first preventers''?
    Answer. In my earlier testimony, I recounted law enforcement's 
information sharing challenges with the Homeland Security Council 
(HSC), and of our very limited contacts with the National Security 
Council (NSC). While postulating on the effectiveness of a hypothetical 
merger of the two is hazardous at best, we would point out that an 
environment where the absorption of the HSC into the much larger and 
more powerful NSC is not an environment where we feel that our 
interests and needs in the information-sharing realm would 
substantially improve. We feel that the potential of loss in this area 
is greater than the potential for gain.
    Question 2. As we think about enhancing State and local 
participation in security policymaking, what is your view of the 
possibility of moving away from an ``advisory-only'' posture to more 
``direct involvement'' in the approval of homeland security policies? 
Consider the prospect of creating a new hybrid committee, composed of 
State Homeland Security Advisors, to meet regularly to discuss current 
homeland security issues early in the policy development process and 
transmit to the White House their approval or disapproval. Do you 
believe that such a formulation, giving State and local authorities not 
only an advisory role but the power to veto pending homeland security 
policy would prove beneficial to homeland security policy making?
    Answer. MCC is warm to the idea of a forum of State, local, and 
Tribal officials that have real power in the homeland security 
policymaking process. However, we feel that limiting membership to only 
State Homeland Security Advisors is too narrow a focus. Most ``first 
preventer'' and ``first responder'' resources are ``owned'' at the 
municipal level, not the State level. Similarly, State Homeland 
Security Advisors are seldom selected from the ranks of local public 
safety professionals. Those who pay the bills, and who are ultimately 
responsible for building and sustaining necessary capacity should have 
seats at the table as well. Elected leadership of large national 
organizations like Major Cities Chiefs, Major County Sheriffs, and the 
International Association of Chiefs of Police are representative 
examples of bodies headed by active duty municipal leaders representing 
tens of thousands of key assets, personnel, and communities. They 
deserve to be directly involved.
    As to ``veto power''--MCC would urge caution. The current 
policymaking process is already almost unfathomably complex, containing 
many critical-path ``go--no go'' points. MCC would recommend a 
thoughtful analysis of where the advice of such a forum would be most 
beneficial, and to fit it into existing mechanisms without creating an 
additional potential roadblock.
    Question 3. As an advocate for State and local authorities, how 
effective has the Department of Homeland Security's Assistant Secretary 
for State and Local Law Enforcement been?
    Answer. MCC commends the foresight and leadership shown by Congress 
in creating this important position at the policy-making level of DHS. 
Likewise, we commend the selection of Sheriff Ted Sexton to fill this 
position. However, we feel that DHS has more tolerated than embraced 
the position, as evidenced by Assistant Secretary Sexton's small staff, 
limited budget, and limited organizational ``clout''. In the Washington 
environment we all know that people who control people and money are 
carefully listened to. People who don't are listened to. We feel 
strongly that a renegotiated role for this position, specifically a 
role that includes decision-making authority over law enforcement 
Grants and Training money, would be very beneficial to all parties.
    Question 4. One issue that has not yet abated in Washington 
concerns difficulties that many State and local law enforcement 
officials have receiving or retaining security clearances from the 
Federal Government. Classified policy discussions at the White House 
level may require additional vetting or background specifications. I 
understand that some major police department unions restrict the types 
of vetting and security protocols that their officers may be subject 
to. Is this correct, and if so, have these police organizations 
developed work-arounds to meet Federal and local requirements and 
enable clearance adjudication?
    Answer. The heart of this issue involves sworn State/local police 
officers being required to take polygraph examinations to receive 
security clearances sufficient to permit assignment to joint terrorism 
task forces (JTTFs). When the polygraph policy was instituted by the 
FBI, some officers questioned this new requirement. Many police 
departments have policies in place limiting the use of polygraphs in 
administrative investigations. When the FBI began requiring polygraphs, 
some unions reviewed the policy and determined that requests for 
assignment to JTTFs is a voluntary action taken by the police officer, 
and as such the polygraph was considered a condition of employment. 
This position has resolved the issue for most departments.
    On behalf of the Major Cities Chiefs Association, I would like to 
express our appreciation for the honor of the opportunity to express 
our views on these important issues.
     Questions From Chairman Bennie G. Thompson for Bruce Hoffman, 
      Professor, School of Foreign Service, Georgetown University
    Question 1. The 9/11 Commission Report attributed the terrorist 
attacks, in part, to the failure of the intelligence and law 
enforcement communities to share information, regardless of its foreign 
or domestic origin: Do you believe that the integration of the National 
Security Council with the Homeland Security Council or their staffs 
would break down the barriers to the sharing of intelligence 
information across the Federal Government? How do you think it would 
impact information sharing with State, local, and Tribal partners--our 
``first preventers''?
    Answer. Response was not received at the time of publication.
    Question 2. As we think about enhancing State and local 
participation in security policymaking, what is your view of the 
possibility of moving away from an ``advisory-only'' posture to more 
``direct involvement'' in the approval of homeland security policies? 
Consider the prospect of creating a new hybrid committee, composed of 
State Homeland Security Advisors, to meet regularly to discuss current 
homeland security issues early in the policy development process and 
transmit to the White House their approval or disapproval. Do you 
believe that such a formulation, giving State and local authorities not 
only an advisory role but the power to veto pending homeland security 
policy would prove beneficial to homeland security policy making?
    Answer. Response was not received at the time of publication.
    Question 3. Do you know of any statutory or Executive prohibitions 
that prevent the National Security Council from consulting and 
coordinating with State, local, or private sector entities? If so, 
please describe them.
    Answer. Response was not received at the time of publication.
    Question 4. Putting aside the questions of Federalism, would it be 
appropriate to have representation from various levels of government 
such as State and local governments in homeland security policymaking?
    Answer. Response was not received at the time of publication.
    Question 5a. It is often said that the problems this country 
continues to face in building an effective counter-terrorism strategy 
centers on our ability to integrate all aspects of the Federal 
bureaucracy.
    Please describe your views on whether a merger of the two Councils 
or staff will help advance the promulgation and execution of policy in 
an integrated fashion.
    Answer. Response was not received at the time of publication.
    Question 5b. Aside from structural changes, what could be done to 
better ensure coordination of plans, policies, and processes?
    Answer. Response was not received at the time of publication.
    Question 6. While we all support enhancing State and local 
participation in homeland security policymaking, it is often difficult 
to determine who amongst the wide array of State and local officials 
would best represent these interests. Specifically, given the diversity 
of voices in Governors Mansions, State houses, and local police and 
fire houses, how would you recommend the White House identify the right 
officials to communicate the collective views of State and local 
authorities?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
